<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]




 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                       WEDNESDAY, MARCH 18, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:03 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Lisa Murkowski (chairwoman) 
presiding.
    Present: Senators Murkowski, Blunt, Daines, Udall, Leahy, 
and Tester.

                       DEPARTMENT OF AGRICULTURE

                      United States Forest Service

STATEMENT OF TOM TIDWELL, CHIEF
ACCOMPANIED BY TONY DIXON, DIRECTOR, STRATEGIC PLANNING, BUDGET AND 
            ACCOUNTABILITY

              OPENING STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Good morning. We will call the hearing 
to order this morning. We are here today to review the fiscal 
year 2016 budget request for the Forest Service.
    Chief, it is good to have you back before the subcommittee. 
Thank you.
    And I would also like to welcome Mr. Tony Dixon, who serves 
as the Director of the Office of Strategic Planning, Budget, 
and Accountability at the Forest Service. He's accompanying the 
Chief today. Welcome to you as well.
    Again, we are going to follow early bird rules here. We 
will do 6-minute rounds afterward. Hopefully, we will be able 
to get through all of our questions this morning. I know that 
other members have other appropriations hearings that we are 
trying to juggle and run in and out between. So hopefully, we 
will operate smoothly here and efficiently.
    Let's go to the budget request itself. The Forest Service 
has asked for $4.93 billion for fiscal year 2016. That is 2.7 
percent or $130 million less than the current enacted level. 
The Forest Service has also requested an additional $854 
million in mandatory spending for the proposed fire cap 
adjustment.
    I am pleased that the request maintains the increases the 
subcommittee included last year for hazardous fuels management. 
I also appreciate the funding proposed for the Forest Inventory 
Analysis program. This provides important information to our 
States, to industry, and other land managers on the health of 
all of our Nation's forests. It will allow this information to 
be collected in interior Alaska for the very first time, which 
the State has advocated for, for many years.
    I also appreciate that unlike previous years where the 
subsistence program line item was proposed for elimination, 
that funding is included at last year's level. This is critical 
for managing the subsistence resource in Alaska, so I thank you 
for that.
    There are a few things that I do find concerning, so I have 
to mention those as well. The budget requests $127.7 million 
for Federal land acquisition through the Land and Water 
Conservation Fund, $65 million of which is proposed to be 
mandatory spending. That is a staggering $80 million above 
fiscal year 2015. While the President's budget doesn't respect 
the budget caps, this subcommittee is still bound by the Budget 
Control Act.
    And while I do believe we should reauthorize and modernize 
the Land and Water Conservation Fund, this is a proposal, 
looking at your budget, Chief, that I can't support.
    The administration is yet again proposing the Integrated 
Resource Restoration program, which has been rejected multiple 
times by this subcommittee, because the Forest Service has not 
yet demonstrated the effectiveness of the current IRR pileup 
projects. And I know that I bring this up with you at every 
budget hearing, so it is back before us again.
    Despite the problems that I see with the President's 
request, there are also areas where I do believe we can be 
working together. For example, I am committed to working with 
my colleagues to find a way to stop fire borrowing. Fire 
borrowing undermines the appropriations process and restricts 
our ability to complete important work on the ground because of 
the loss of field seasons. Future activities are further 
impeded when we are forced to repay fire suppression costs in 
the following fiscal year.
    I am hopeful that during the course of this Congress, we 
will reach agreement on how to end this destructive cycle.
    We also need to get back to the idea that the Forest 
Service should manage our forests for multiple use and 
sustained yield. While I appreciate the idea of the new Forest 
Service mantra, which is ``Caring for the Land, Serving the 
People,'' it doesn't always feel like you are living up to it 
in Southeast Alaska and the Tongass area, and in other parts 
around the country.
    What would best serve the people of my State is a 
sustainable timber industry, and no one is suggesting that we 
should roll back the clock and engage in what some might 
consider irresponsible forestry management. Alaska has proven 
that robust development, tourism, and habitat can successfully 
coexist, and I know that there are many, many examples across 
the country.
    The elementary school where I went as a kid was once 
robustly funded by a thriving Federal timber program, but today 
it relies on Secure Rural Schools subsidies, which are harder 
and harder to find space for in our annual budget. This is a 
problem of the Forest Service's own creation. So I look forward 
to hearing how the Forest Service proposes to correct it.
    It is not a false choice to pursue both healthy local 
economies and healthy forests. We can have both. And if we work 
toward that as our goal, we will solve many of the problems 
that we currently face.
    We wouldn't require hundreds of millions of dollars for 
subsidies to our logging communities. We could make great 
strides in reducing fuel loads in our Federal forests. And we 
could make advancements in technology that will result in 
commercial uses for currently nonmerchantable timber. Most 
importantly, we could have thriving and healthy communities and 
forests.
    During questions, I want to discuss several challenges that 
we are facing and hear your ideas for solutions to them. I 
would like to hear about the Forest Service plans for air 
tanker modernization, and aircraft availability this fire 
season, and then going into the future. I would also like to 
hear how the Forest Service proposes to increase revenues to 
counties while phasing out the Secure Rural Schools program. 
And I would also like to hear about any developments the Forest 
Service has made toward maintaining a sustainable timber 
industry in Alaska.
    Again, Chief, thank you for being here today. I look 
forward to your testimony.
    And with that, I will turn to my ranking member, Senator 
Udall.

                     STATEMENT OF SENATOR TOM UDALL

             FOREST SERVICE FISCAL YEAR 2016 BUDGET REQUEST

    Senator Udall. Thank you very much, Chairman Murkowski.
    And good morning and welcome, Chief Tidwell, and Budget 
Director Tony Dixon. Thank you for joining us today as we 
discuss the fiscal year 2016 budget request for the Forest 
Service.
    This is very important to New Mexico. We are home to seven 
national forests and one national grassland. We are also a 
hotspot for almost every management issue that the Forest 
Service faces: the economic activities of timber, mining, 
grazing, and recreation; the protection of wilderness, 
watersheds, and endangered species; the impact of disease, 
drought, and fire.
    In New Mexico, we are dealing with historic drought and 
devastating wildfires. The Las Conchas fire in 2011 destroyed 
over 156,000 acres, half of it in the Santa Fe National Forest. 
It was New Mexico's largest fire in history, but not for long.
    In 2012, the Whitewater-Baldy fires burned up almost twice 
as much acreage, 298,000 acres in the Gila National Forest.
    Then in 2013, the Silver fire, 138,000 acres burned also in 
the Gila, the third largest fire on record in our State.
    I commend the Forest Service for their efforts to fight 
these fires and to repair the damage. The Burned Area Emergency 
Repair program was a great help to stabilize the burned-over 
landscape, clean up cultural and heritage sites, and repair 
trails. That war continues. Even with these funds, it will take 
many years.
    And the changing climate is making this type of fire more 
likely. More and more trees are dying across the southwest due 
to historic drought and increased temperatures. Winter warming 
has worsened bark beetle outbreaks by allowing more beetles, 
which normally die in cold weather, to survive and reproduce. 
Wildfire and bark beetles killed 20 percent of trees in Arizona 
and New Mexico forests from 1984 to 2008.
    The danger is clear and growing. It is crucial to fund 
programs that reestablish healthy, resilient forests that can 
withstand fire and disease.
    I totally agree with what the Chairman said in terms of 
talking about sustainable forestry. I think that is something 
that the two of us can agree on, and I would like to work with 
you on that.
    We can't keep borrowing, though, on this Forest Service 
situation, borrowing from Peter to pay Paul. We have to move 
beyond the cycle we are stuck in. We can't keep fighting fires 
with money borrowed from programs that help prevent them. The 
Forest Service needs to be able to pay for firefighting without 
gouging its other mission areas.
    Firefighting now takes 47 percent of its budget, compared 
to just 13 percent in the early 1990s, and that is clearly, 
Chief, as you know, not sustainable.
    The disaster cap proposal included in the budget is an 
opportunity to both stop the borrowing and, at the same time, 
dedicate funding to restore our forests. I look forward to 
talking about how we can work together to get this proposal 
signed into law.
    I am also looking forward to discussing with you a number 
of the regular proposals in the budget, including a $20 million 
increase for the Collaborative Forest Landscape Restoration 
program. New Mexico has two ongoing collaborative projects. I 
would like to talk about how this increase will be used and 
whether it could help projects in my State.
    There are other management issues to consider as well. The 
budget again proposes the consolidation of major accounts 
within the National Forest System into the Integrated Resource 
Restoration line item. This began as a pilot program, as you 
know, Chief, in fiscal year 2012, in the three Forest Service 
regions. That includes all of New Mexico's national forests, 
which are also undergoing management plan revisions under the 
new 2012 planning rule. So I hope to hear more about that 
process.
    Finally, the budget includes an additional $8 million for 
Forest Legacy projects and $15.5 million for Land Acquisition. 
New Mexico projects are not included on either list this year, 
but full support for the Land and Water Conservation Fund 
(LWCF) is as important as ever. LWCF is vital to protecting our 
public lands, and I look forward to hearing from you, Chief 
Tidwell, and to discuss these matters with you this morning.
    And with that, I yield back, Madam Chair.
    Senator Murkowski. Thank you, Senator Udall.
    With that, let's go to the Chief this morning. Welcome to 
the subcommittee.
    And, Mr. Dixon, we appreciate you being here as well.
    I would like to get right in to the Chief's comments, so we 
can move to questions and answers. If members have an opening 
statement that they would like to submit for the record, we are 
happy to include that. But let's, at this time, invite the 
Chief to present on behalf of the Forest Service.

                    SUMMARY STATEMENT OF TOM TIDWELL

    Mr. Tidwell. Madam Chair Murkowski, Ranking Member Udall, 
Senator Tester, Senator Daines, I appreciate the opportunity to 
be here today to talk about the fiscal year 2016 budget request 
for the U.S. Forest Service. Once again, I really appreciate 
the work we have been able to accomplish over the last year 
working together to address the needs of our communities, but 
also primarily to help restore our Nation's forests.
    I just want to highlight a few of the key points of our 
budget request.
    The first one is that this budget request will continue to 
allow us to increase the pace and scale of restoring our 
Nation's forests and grasslands by doing restoration on 2.9 
million acres, restoring over 3,200 miles of streams, restoring 
2,000 miles of road, improving the ecological condition on 20 
key watersheds, and producing 3.2 billion board feet. This is 
one of the key outputs that come off our restoration work, and 
it basically reflects about a 33 percent increase from when I 
first addressed this subcommittee 5 years ago.
    It also is asking for additional money, an additional $20 
million to expand the Collaborative Forest Landscape 
Restoration program (CFLRP). This program has proven the 
benefits of making multiyear commitments of funding to large 
landscapes, and I am anxious we will be sending a 5-year report 
on the CFLRP accomplishments. We will be sending the report to 
the Hill next week.
    I also want to be able to use the additional money that we 
are asking for in our Integrated Research Restoration budget 
line item. We are asking for another $27 million. Part of that 
I would like to use to do a pilot approach similar to CFLRP, 
but in the landscapes in the country that are not dominated by 
fire-dependent ecosystems.
    If you look at the CFLRP map, you see where those 23 
projects are spread across the country, there is a couple big 
parts of our country that do not have any projects there 
because they do not have these fire-dependent ecosystems. But I 
would like to be able to take a pilot approach to be able to 
use a similar concept to be able to make a multiyear commitment 
of funds to be able to address the forest health issues in 
those parts of the country and at the same time be able to 
sustain the integrated wood products industry.
    This budget request does maintain the significant increase 
in hazardous fuels funding that you granted us last year, so 
that we can continue to treat another 1.7 million acres of 
hazardous fuels in wildland-urban interface.
    It will also allow us to maintain the level of preparedness 
resources so that we will continue to suppress 98 percent of 
all wildland fires where we take initial attack, while dealing 
with now over 58 million acres of wildland-urban interface.
    The budget request does ask for a fire cap adjustment to 
deal with the cost of fire suppression. This is an approach 
that I really appreciate the support of the members, and their 
leadership, to be able to find a legislative solution. But it 
is past time for us to find a fix and to stop the transfer, to 
stop having to shut down operations in August, be able to move 
funds from all the programs across the country, to be able to 
pay the cost of fire suppression, and then just have Congress 
appropriate the money to pay it back in the next year or the 
year after.
    So this is, I think, our best opportunity, once and for 
all, to finally solve this problem.
    With the budget fire cap adjustment, our request still 
includes 70 percent of the 10-year average. The 10-year average 
went up between fiscal year 2015 and fiscal year 2016. The 10-
year average went up $115 million this year. I think it is just 
another example of why we need to find a different approach to 
address fire suppression cost.
    With the fire cap adjustment, we still would be funding the 
suppression on probably 99 percent of our fires through our 
appropriated budget. It is just about 1 percent of our fires 
that result in about 30 percent of the costs. We would like 
those fires to be considered a natural disaster.
    Those are the fires that impact our communities, where we 
spend the millions of dollars on it. And just like last year, 
the top 10 fires we had last year, were the most expensive 
fires, $329 million. So I think last year was just another 
example that really supports this legislative solution of being 
able to recognize that this very small number of fires, this 1 
percent of the fires, should be treated as a natural disaster.
    This budget request does ask for some increases in the Land 
and Water Conservation Fund (LWCF) and our Forest Legacy 
Program. When I look at the projects that we are proposing to 
fund with this additional money, it has been my experience that 
the acquisitions are on relatively small tracks. It has been my 
personal experience that, in every case, it reduces the 
administrative costs; it removes boundaries we maintain; it 
allows us to be able to do restoration treatments across larger 
landscapes and not have to be worried about dealing with an 
isolated 640 acres. It also provides certainty for public 
access, even on some of these parcels that today the public is 
allowed to cross to be able to access the national forests. 
Nobody knows for sure if that'll be there in the future, but by 
acquiring these parcels, it does guarantee public access.
    With our Forest Legacy Program, it also allows us to work 
with willing landowners to put a conservation easement on their 
land to allow them to keep their land and to keep it working 
versus having to sell it to some form of development.
    This budget request does include the increased request for 
Forest Inventory and Analysis (FIA), and I appreciate, Madam 
Chair, you mentioning that. This is an essential program, not 
just for the Forest Service, but every State forestry agency, 
and industry. The timber industry relies on this information.
    It is essential that we be able to maintain, not only the 
quality of the information, but be able to expand it to include 
interior Alaska, but at the same time be able to reduce the 
frequency of how often we read the plots. As we see the changes 
that are occurring in our landscapes, they are driven by 
multiple infestations of insect and disease, fire, and climate 
change. There is a necessity for us to be able to increase the 
frequency of reading these plots so we have the information 
that we need to make sure that we can sustain the Nation's 
forests.

                           PREPARED STATEMENT

    Then, the last key part of the budget is our proposal to 
reauthorize Secure Rural Schools. I believe it is just 
essential that we find a way to reauthorize this program that 
has proven to be very successful, and to provide that safety 
net to our communities. At the same time, it has also provided 
funding for us to do additional restoration work that is 
strongly supported by our counties and our boroughs across the 
country.
    So thank you for letting me take a few minutes to just 
highlight a few points of this budget request, and I look 
forward to answering your questions.
    [The statement follows:]
                   Prepared Statement of Tom Tidwell
    Madam Chairman and members of the subcommittee, thank you for 
inviting me to testify on the President's budget request for the Forest 
Service for fiscal year 2016. I appreciate the support this 
subcommittee has shown for the Forest Service in the past. I look 
forward to continuing to work with members of the subcommittee to 
ensure that stewardship of our Nation's forests and grasslands serve 
the desires, expectations, and interests of the American people. I am 
confident that this budget, paired with the passage of a wildland fire 
suppression budget cap adjustment, will allow the Forest Service to 
meet the increasingly complex challenges of natural resource management 
while fostering efficiency and demonstrating cost-effective spending.
                     budget request and focus areas
    The President's proposed overall budget for discretionary funding 
for the Forest Service in fiscal year 2016 is $4.9 billion. That is 
$130 million less than the fiscal year 2015 enacted level, but it 
reflects strategic investments to increase forest restoration and 
reduce wildfire threats to communities. This budget focuses on five key 
areas: restoring resilient landscapes, building thriving communities, 
managing wildland fires, promoting safety, and building diversity and 
inclusiveness. It proposes a fiscally responsible funding strategy for 
wildland fire management, contributes to long-term economic growth, and 
continues our efforts to achieve the greatest benefits for the taxpayer 
with the most cost-effective approach. This budget will enable us to 
more effectively reduce fire risk, manage landscapes more holistically, 
and increase the resiliency of the Nation's forests and grasslands as 
well as the communities that border them.
                     restoring resilient landscapes
    The Forest Service responds to the many stressors affecting our 
landscapes and watersheds by working to restore healthy, resilient 
forests and grasslands. By restoration, we mean re-establishing the 
functions and processes characteristic of healthier, more threat-
resistant, and more resilient ecosystems, even if they are not exactly 
the same ecosystems that existed before. These efforts reduce carbon 
emissions and make forests and grasslands more resilient in the face of 
climate change as well as climate-related disturbances, such as 
wildfires and insect outbreaks. Our goal is to protect and regain the 
ability of America's forests and grasslands to deliver all the social, 
economic, and ecological values and benefits that Americans want and 
need, both now and for generations to come.
    In fiscal year 2012, Congress authorized a pilot program where 
multiple budget line items were combined into a single line item, 
Integrated Resource Restoration, in three Forest Service regions. 
Combining funds from multiple budget line items allows us to better 
integrate and align watershed protection and restoration into all 
aspects of our management. Results from the pilot program consistently 
show that budget planning is simpler and managers have more flexibility 
to complete restoration work. When programs are better integrated, it 
is easier to establish goals and set priorities. Given the demonstrated 
success of this approach in the three pilot regions, we propose to 
fully implement Integrated Resource Restoration across the entire 
Forest Service in fiscal year 2016, with a budget of $822 million. This 
level of funding and the associated outputs below are dependent on the 
passage of a fire suppression cap adjustment and will help us implement 
restoration projects to address insect and disease outbreaks in areas 
designated under the 2014 Farm Bill and to work with the States under 
our new Good Neighbor Authority. If funded at the requested budget 
level, we will use the Integrated Resource Restoration line item to 
treat 2.9 million acres to improve watershed function and resilience, 
sell 3.2 billion board feet of timber, maintain over 52 percent of the 
watersheds across the National Forest System at a properly functioning 
condition, and improve the condition of up to an additional 20 
watersheds.
    Created in 2009, the Collaborative Forest Landscape Restoration 
Program encourages collaborative, science-based ecosystem restoration 
of priority landscapes. The program currently supports 23 large-scale 
projects for 10-year funding to implement priority restoration projects 
on National Forest System lands while engaging local communities and 
leveraging partner resources through collaboration, implementation, and 
monitoring. The projects support an array of restoration activities, 
including reducing hazardous fuels, restoring watershed function and 
resilience, increasing pollinator habitat, and improving forest 
vegetation and wildlife habitat. These collaborative projects help 
local economies by creating and maintaining jobs in rural communities, 
generating commercial timber and biomass for energy production, and 
restoring forest health while reducing the need for fire suppression in 
overgrown forests. The fiscal year 2016 President's budget for the 
Forest Service includes a proposal to eventually increase funding 
authority for the program from $40 million to $80 million, with funding 
in fiscal year 2016 requested at $60 million. The funding increase will 
allow us to pursue up to 10 additional projects. Accordingly, the 
budget proposes extending authority for the program through 2024 to 
allow for full completion of new projects.
    The fiscal year 2016 President's budget for the Forest Service sets 
the stage for restorative actions, providing the necessary 
infrastructure as well as the needed scientific and organizational 
foundations for ecological restoration. Our researchers will provide 
managers with the knowledge they need to make sound risk-based 
decisions to take restorative actions, partly through the Regional Hubs 
for Risk Adaptation and Mitigation to Climate Change. The fiscal year 
2016 President's budget funds Forest Service Research and Development 
at $292 million. That includes $83 million for Forest Inventory and 
Analysis, an increase of $13 million from the fiscal year 2015 enacted 
level. This additional funding will allow us to inventory the vast, 
remote forests of interior Alaska for the first time using state-of-
the-art remote sensing technology combined with field teams to verify 
our initial results.
    It will also allow us to address 5 of the 11 provisions in the 
Forest Inventory and Analysis strategic plan, developed pursuant to 
direction in the 2014 Farm Bill. These provisions include improved 
forest carbon and biomass estimation, enhanced forest ownership study, 
improvements in land use and land cover research, annualized forest 
products monitoring, and inventorying the full base target of 15 
percent of plots in the East and 10 percent of plots in the West 
annually.
                     building thriving communities
    The Forest Service works to build thriving communities across the 
Nation by providing communities with the many economic benefits that 
result from sustainable multiple-use management of the national forests 
and grasslands, helping urban communities reconnect with the outdoors, 
and expanding the benefits that both rural and urban residents get from 
outdoor recreation. Rural communities rely on the landscapes around 
them for hunting, fishing, and various amenities.
    Forest-dependent rural counties and communities have long benefited 
from Forest Service payments to support rural schools, including 
payments under the Secure Rural Schools and Community Self-
Determination Act of 2000. We propose reauthorizing the act through 
2019. This will help timber-dependent rural communities transition to a 
more diverse, resilient economic model that is less reliant on the 
receipt of Federal financial support.
    Jobs and economic benefits stem from our administration of the 
National Forest System, including its multiple uses, as well as from 
investments in the activities, access, and infrastructure needed to 
deliver essential public services such as clean water, electrical 
power, and outdoor recreational experiences. The fiscal year 2016 
President's budget for the Forest Service will focus on building 
thriving communities by providing jobs and benefits in two key areas: 
outdoor recreation and forest products. We will also continue to issue 
and renew grazing permits, execute timber sales, and permit other 
commercial uses of forests and grasslands nationwide.
Jobs and Benefits from Outdoor Recreation
    Spending by visitors engaging in recreation activities, including 
skiing, hiking, hunting, and fishing, supports more jobs and economic 
output than any other activities on the National Forest System. In 
2012, outdoor recreation on the National Forest System supported around 
190,000 jobs and contributed about $13 billion to the Nation's gross 
domestic product.
    We offer a range of recreational opportunities across the National 
Forest System to connect people with nature in an unmatched variety of 
settings and through a plethora of activities. We will expand programs 
that demonstrate success and explore new partnerships that will 
leverage resources to help get more kids outdoors, up close and 
personal with nature. We will also reconnect visitors with America's 
outdoor heritage and help them learn about the Great Outdoors, 
improving their quality of life as they become citizen-stewards of 
their public lands. The fiscal year 2016 President's budget would fund 
the Recreation, Heritage, and Wilderness program at $263.9 million. 
Reauthorization of the Federal Lands Recreation Enhancement Act through 
fiscal year 2017 would help us meet public demand for sustainably 
managed recreational facilities.
    We manage our infrastructure to ensure safety, protect water 
quality, and conserve wildlife habitat, especially threatened, 
endangered, and sensitive species. The fiscal year 2016 President's 
budget includes a $33 million investment in Deferred Maintenance and 
Infrastructure Improvement to address the backlog of maintenance and 
repair of Forest Service facilities.
Jobs and Benefits from Timber, Grazing, and Other Uses
    Through work on National Forest System lands, the timber and forest 
products industries, livestock producers, and minerals/energy 
production collectively support about 118,000 jobs. Each year, these 
industries contribute about $11.5 billion to America's gross domestic 
product. In rural areas in particular, these uses deliver sustained 
social and economic benefits to communities.
    Our restoration work will create local jobs and help sustain 
communities, as will the sale of restoration byproducts. We will use 
traditional timber sales as well as our stewardship contracting 
authority to restore watersheds and healthy, resilient forested 
landscapes on National Forest System lands while engaging communities 
in management of their public lands. Our fiscal year 2016 target for 
timber volume sold is 3.2 billion board feet, up from 2.9 billion board 
feet in fiscal year 2015. We will promote woody biomass utilization and 
biomass markets and facilities, providing jobs and other community 
benefits. Local communities will also benefit from fuelwood, special 
forest products, and safe drinking water supplies from the national 
forests.
    However, the national forests account for only 20 percent of the 
Nation's forested lands. The remainder is under State, private, tribal, 
municipal, or other Federal ownership. Private forests alone supply 
almost 30 percent of the Nation's surface drinking water, provide 
habitat for 60 percent of at-risk species, and furnish more than 90 
percent of domestically produced timber. Accordingly, our 
responsibilities to support sustainable forest management go far beyond 
the National Forest System lands.
    We will continue to support sustainable forest management on a 
landscape scale through a variety of educational and technical 
assistance programs for private forest landowners. Rural communities 
benefit from nearby forests, which provide local jobs, bolster rural 
economies and community infrastructure, and furnish opportunities for 
rural Americans to connect with the Great Outdoors. The fiscal year 
2016 President's budget proposes maintaining our investment in forest 
landowner assistance through $23 million in funding for the Forest 
Stewardship program.
Land Acquisition and Improved Public Access
    We join the U.S. Department of the Interior in requesting $400 
million in discretionary funding and $500 million in mandatory funding 
for the Land and Water Conservation Fund in fiscal year 2016, with all 
$900 million coming from mandatory funding in fiscal year 2017. Full 
funding for the Land and Water Conservation Fund supports the 
President's agenda of improving public access. Accordingly, we will 
work with partners to protect critical forested landscapes from 
conversion to developed uses through $61 million in discretionary 
funding for the Forest Legacy Program, $8 million more than the fiscal 
year 2015 enacted level.
    Our Land Acquisition Program will provide access for people, 
protect critical ecosystems, and prevent habitat fragmentation. Land 
acquisitions provide proven value for the taxpayer, making it easier 
and less expensive for people to access their public lands--and easier 
and less expensive for the Forest Service to manage and restore the 
lands entrusted to our care. An analysis by The Trust for Public Land 
showed that every $1 invested in Federal land acquisition returns $4 to 
the taxpayer. The fiscal year 2016 President's budget proposes $63 
million in discretionary funding for our Federal Land Acquisition 
program, an increase of $15.5 million from the fiscal year 2015 enacted 
level. Five million dollars of the discretionary funds will be used to 
acquire tracts to improve sportsman and recreational access to National 
Forest System lands.
    In and around our cities, we will work with partners to sustain and 
restore urban forests. This not only helps ensure widespread access to 
green space, but provides other vital benefits such as energy savings, 
flood and pollution control, and climate change mitigation. The vast 
majority of Americans live in urban areas and urban and community 
forests cover about 130 million acres, an area larger than California. 
Tree-lined streets and open spaces improve quality of life for millions 
of Americans and we will work with urban communities to protect and 
expand these amenities. The fiscal year 2016 President's budget funds 
Urban and Community Forestry at $23.7 million.
                        managing wildland fires
    Increasingly severe fire seasons are one of the greatest challenges 
facing the Nation's forests. The Forest Service will continue to 
collaborate with its Federal, State, local, and tribal governments, 
partners, and stakeholders on the implementation of the National 
Cohesive Wildland Fire Management Strategy to safely and effectively 
extinguish fire when needed, use fire where allowable, manage our 
natural resources and, as a Nation, live with wildland fire.
    The Forest Service has one of the most effective fire organizations 
in the world and continues to keep almost 98 percent of the wildfires 
we fight very small. However, the few fires that do escape initial 
response tend to grow much larger far more quickly than ever before. In 
addition, the cost of fire suppression has soared in the past 20 years.
    We are again proposing a revised funding strategy for wildfire 
suppression. The fiscal year 2016 President's budget proposes 
discretionary funding for suppression at a level represented by 70 
percent of the 10-year average of fire suppression costs. This level of 
funding provides for suppression of 99 percent of the fires we 
fight.\1\ In addition, up to $855 million would be made available under 
a disaster funding cap adjustment to meet funding needs for fire 
suppression above the base appropriation. This strategy would provide 
increased certainty in addressing growing needs for fire suppression 
funding while better protecting non-suppression programs from funding 
transfers that diminish their effectiveness. Moreover, it would allow 
us to stabilize our investments in restoring forested landscapes, 
helping forests adapt to the growing effects of climate change, and 
preparing communities in the wildland/urban interface for future 
wildfires.
---------------------------------------------------------------------------
    \1\ A joint analysis between the Department of Agriculture and the 
Department of the Interior found that 1 percent of fires are 
responsible for 30 percent of suppression costs.
---------------------------------------------------------------------------
Restoring Fire-Adapted Ecosystems
    Fire plays a beneficial role in maintaining the ecological 
stability of many landscapes, and the Forest Service is working with 
partners to restore healthy, resilient, fire-adapted ecosystems. Our 
goal, especially near homes and communities, is to prepare forests and 
grasslands to resist stresses such as drought and recover from 
disturbances, including wildfires. Our large-scale restoration projects 
are designed in part to restore fire-adapted forest types across large 
landscapes, including the reintroduction of periodic wildland fire 
where safe and effective.
    Developing new markets for the low-value woody materials we remove 
during restoration and hazardous fuels treatments will help offset the 
costs of these activities while providing new revenue streams for 
private landowners. Therefore, this remains a top priority for the 
Forest Service. We will continue to provide grants and other forms of 
assistance for wood-to-energy initiatives, and to help projects compete 
for other sources of funding. We will also provide technical assistance 
to help facilities that convert wood to energy become or remain 
financially viable.
Building Fire-Adapted Human Communities
    More than 46 million homes in the United States, or about 40 
percent of our Nation's housing units, are located in fire-prone parts 
of the wildland/urban interface. We will continue providing scientific 
and analytical support to help these communities become fire-adapted. 
This work includes completing hazardous fuels treatments, preparing 
community wildfire protection plans, becoming designated as Firewise 
Communities through the national Firewise program, and obtaining 
equipment to respond to and mitigate wildfire. Our goal is to encourage 
communities to adapt to wildland fire by establishing an effective 
emergency response plan and managing risk in a way that protects lives, 
property, and wildland resources. The fiscal year 2016 President's 
budget proposes funding the corresponding Research and Development 
program at nearly $20 million and the Joint Fire Science Program at 
nearly $7 million, both about equal to the fiscal year 2015 enacted 
levels.
    We will control fuels in the wildland/urban interface by removing 
buildups of dead vegetation and thinning overly dense forests. We will 
focus on treating high-priority areas, including municipal watersheds 
to protect water supplies. The fiscal year 2016 President's budget 
proposes $359 million for our Hazardous Fuels program, approximately 
the same as the fiscal year 2015 enacted level.
Responding Appropriately to Wildfire
    Where suppression is needed to protect homes and property, we will 
continue to deploy resources at appropriate places and times. Fire 
managers are using improved decision support tools to make risk-based 
assessments about when and where to suppress a fire--and when and where 
to use fire to achieve management goals for long-term ecosystem health 
and resilience. Our primary goal is always to protect life and 
property. Our collaborative interagency emergency response capacity, 
executed in cooperation with law enforcement, helps us accomplish this 
by focusing on preparedness for wildfire and other natural disasters 
and assuring an appropriate risk-based response.
    We will continue to maintain an appropriate level of preparedness. 
Our Preparedness program has proven its worth. Fire Program Analysis, a 
strategic management tool, shows that every $1.00 subtracted from 
preparedness funding adds $1.70 to suppression costs because of small 
fires that escape to become large fires. Maintaining an adequate level 
of preparedness will reduce overall fire management costs. The fiscal 
year 2016 President's budget proposes $1.08 billion in Preparedness 
funding.
    We will continue pursuing our Large Airtanker Modernization 
Strategy. Airtankers play a crucial role in keeping fires small. In 
fiscal year 2016, the Forest Service expects to have up to 21 
airtankers available. Fifteen will be next generation and six will be 
legacy. One of the 16 will be a Forest Service C-130H. Our strategy is 
to fund both the older aircraft still in operation (needed as we 
transition to newer aircraft) and the next-generation airtankers 
currently under contract.
    We will also continue leveraging State and local firefighting 
resources by providing State and volunteer fire assistance. State and 
local fire departments are the first responders to almost 75 percent of 
the Nation's wildfires, so investing in their capacity is a high 
priority for the Forest Service. Federal grants are matched dollar for 
dollar, extending the value of our investments. We propose funding the 
State Fire Assistance Program at $78 million and the Volunteer Fire 
Assistance Program at $13 million, both nearly equal to the fiscal year 
2015 enacted levels.
                            promoting safety
    Forest Service work can take us into high-risk environments. 
Ensuring human safety entails recognizing and managing these risks. For 
several years now, the Forest Service has been on a learning journey to 
become a safer organization. Our efforts have resulted in a reduction 
of work-related annual fatalities from a 5-year running average of 7.4 
per year in 2009 to a current rate of 1.8 per year. We have also seen a 
28-percent drop in new workers' compensation claims (from nearly 3,700 
annual claims to 2,700 annual claims) over the same period. Our goal is 
to become a zero-fatality organization by continuing to make safety an 
integral part of our organizational culture.
                  building diversity and inclusiveness
    At a time when the vast majority of Americans live in metropolitan 
areas, part of the Forest Service's job is to reach out to urban and 
underserved communities to give more people opportunities to get 
outdoors, participate in public land management, and engage in 
conservation work in their own communities. Building on USDA 
priorities, we will create and retain a more diverse workforce that 
reflects American society. Diversity of thought is key to allowing 
successful organizations to respond to changing circumstances, and it 
stems from hiring people from varied backgrounds. We will strive to 
become an employer of choice for all Americans by continuing to treat 
everyone fairly and respectfully and giving everyone in our workforce 
the opportunity to contribute and succeed.
    We will expand access to the outdoors for underserved and minority 
communities and young people from urban areas by continuing to invest 
in programs designed to reach out to urban youth. We will also build on 
our work with partners to offer opportunities for youth in urban areas 
to engage in conservation work in their own communities and on National 
Forest System lands. We will continue to support the President's 
America's Great Outdoors initiative, with its target of 10,000 students 
serving on public lands. Forest Service Job Corps sites established 
eight Public Lands Corps projects, enabling 1,825 Job Corps students to 
participate in 21st Century Conservation Service Corps projects.
                       cost savings and avoidance
    The Forest Service is committed to achieving the greatest benefits 
for the taxpayer at the lowest cost. Mindful of the need for savings, 
we have taken steps to cut operating costs. Taking advantage of new 
technologies, the Forest Service has streamlined and centralized our 
financial, information technology, and human resources operations to 
gain efficiencies and reduce costs. We will maintain the $100 million 
reduction in overhead costs (cost pools) implemented in fiscal year 
2013-2014.
    In 2012, we adopted a new planning rule designed to reduce the 
length of time it takes to revise management plans, thereby reducing 
costs. We are also reducing costs by making our environmental review 
process under the National Environmental Policy Act more cost-
effective.
    We have adopted new public-private partnership strategies for 
leveraging restoration funding. For example, over 10 years the 
Collaborative Forest Landscape Restoration Program is expected to 
generate $152 million in partner funding. In 2010, we also signed an 
agreement to use municipal funds to restore fire-damaged national 
forest land in the municipal watershed of Denver, Colorado. Over 5 
years, Denver Water is matching the Forest Service's own $16.5 million 
investment in watershed restoration. We have signed similar agreements 
with other cities.
                             future outlook
    For more than a century, the Forest Service has served the American 
people by ensuring that their forests and grasslands deliver a full 
range of values and benefits. Americans benefit tremendously from 
investments in Forest Service programs and activities.
    We are now facing some of the greatest ecological challenges in our 
history. Invasive species, climate change effects, regional drought and 
watershed degradation, fuel buildups and severe wildfires, habitat 
fragmentation and loss of open space, and devastating outbreaks of 
insects and disease all threaten the ability of America's forests and 
grasslands to continue delivering the ecosystem services Americans want 
and need. In response, the Forest Service is increasing the pace and 
scale of ecological restoration. We are working to create healthy, 
resilient forest and grassland ecosystems capable of sustaining and 
delivering clean air and water, habitat for wildlife, opportunities for 
outdoor recreation, and many other benefits.
    Our budget request focuses on our highest priorities: restoring 
resilient landscapes; building thriving communities; and managing 
wildland fire safely and effectively, all while continuing to cultivate 
a highly diverse and inclusive workforce. We will continue to integrate 
our programs and activities while advancing on our journey toward 
becoming a safer organization that is more diverse and inclusive. We 
will also continue to reduce our environmental footprint and improve 
our administrative operations for greater efficiency and effectiveness.
    This concludes my testimony, Madam Chairman. I would be happy to 
answer any questions that you or the subcommittee members have for me.

    Senator Murkowski. Thank you, Chief. Appreciate the 
overview, the summary there.
    Let's move straight to questions. Again to members, we will 
do 6-minute rounds here.

                            BIG THORNE SALE

    I want to start off my questions this morning going local, 
talking about the Tongass. We spend a lot of time talking about 
the Tongass, and there has been a lot of discussion over the 
past several years about how the Big Thorne sale is going to be 
that sale that allows everything to kind of be pieced together.
    But you and I both know that not only is the timber sale 
caught up in litigation, but now even planning and other non-
ground-disturbing activities associated with the Big Thorne 
sale are in jeopardy because of litigation through the 
Endangered Species Act.
    Now you have mentioned that the Forest Service has done 
significant work on endangered species issues relating to Big 
Thorne, but give me some reason for optimism this morning about 
the chances, the likelihood, of this sale going forward this 
spring as we need it to in order to, again, allow this all to 
be pieced together.
    Mr. Tidwell. Well, Madam Chair, you are aware of the 
preliminary injunction motions that we received on this sale. 
We have already filed our first brief on the first one, and we 
will be shortly filing our second brief on the second one. I am 
going to remain confident that we have done an adequate level 
of analysis to address the issues, that we have made changes in 
the decision to address those issues months ago.
    So I am going to remain confident that we are going to be 
able to get a favorable ruling and be able to move forward with 
the implementation of the Big Thorne sale. It is essential that 
we provide the bridge timber that is necessary as we transition 
to second growth. But it is also just another reason for us to 
be able to look at every opportunity we have while we are 
moving forward with the bridge timber, bringing the second 
growth timber supply online at the same time. I still think 
that is our best solution.
    Senator Murkowski. Let me ask you about that because, in 
this day and age, when we are dealing with litigation based on 
our timber sales, quite honestly, we don't have a lot of reason 
to be optimistic, and it is greatly concerning to me. Even if 
the Big Thorne sale makes it out of litigation, there is really 
nothing by way of additional volume behind it. We have Saddle 
Lakes and Wrangell that have been repackaged, reanalyzed, so 
many times, and yet we haven't seen timber out of either of 
these sales.
    So what we have going on is kind of a repackaging, 
basically planning the same sale for five different times. That 
isn't necessarily progress, because we are not seeing wood 
harvested.

                           SADDLE LAKES SALE

    So a question to you about your prognosis on the Saddle 
Lakes sale: Do you think that we are going to see that out this 
year? And if so, what will the volume likely be? And do you 
anticipate that we are going to get sued over that one as well?
    Mr. Tidwell. Well, I will not speculate on what will happen 
with litigation, but we are moving forward with the Kosciusko 
sale this year, and we are moving forward with Wrangell and 
Saddle Lakes, whether they'll be offered this year or the next 
year. They'll be no later than 2016, as part of our bridge 
timber.
    And we are committed to providing that bridge timber, but 
at the same time to be moving forward with bringing on some 
sales with the second growth.
    The solution here is also to look at these larger, 
multiyear contracts, just like we have with Big Thorne, so that 
there is some certainty. When I look at what it is going to 
take to move to second growth, we have to provide the certainty 
of the material, and at the same time provide support for 
retooling of the infrastructure there.
    If we can put that together with our bridge timber program, 
then I am confident that we can have a successful transition.
    Senator Murkowski. Well, you can probably see my 
expression. I am not confident at all. You have litigation that 
continues to be a huge hurdle. You are saying a certainty that 
is needed here, but yet you have this transition to second 
growth, where you and I know there is great question as how 
long it is going to take until that second growth is actually 
ready and will be able to provide a level of harvest that is 
going to make a difference in the total scheme of things.
    So this transition that we keep talking about is more 
theoretical, more on paper, than actually being able to 
translate.

                               RETOOLING

    Question for you, regarding litigation, how much is Forest 
Service spending in the Tongass responding to litigation? Then 
before my time is up, you mentioned the retooling efforts. I 
mentioned to you in the Energy Committee last week or 2 weeks 
ago about the skepticism that I had on the effectiveness of the 
transition plan and said I am hoping that the administration is 
still going to be there when it comes to retooling. We haven't 
seen any of that. We haven't seen this transition aid that we 
had talked about. You mentioned at that time that you were 
going to look into the issues with the Credit Reform Act and 
potentially reprogramming as it relates to transition 
assistance. So I would like to know whether you have any 
additional information on that Credit Reform Act, but also if 
you can give me the number on what we are spending on 
litigation with Tongass sales?
    Mr. Tidwell. Well, your last question first, Madam Chair, 
is that we have looked into that, and we will not need to have 
a reprogramming request. We have the funding available and the 
authority to be able to now sit down and be able to look at how 
we can work together, provide the necessary grants, and to be 
able to move forward with retooling that infrastructure.
    Senator Murkowski. Will that happen this year?
    Mr. Tidwell. We are ready to move forward with it this 
year. We will probably be asking for assistance from your staff 
to be able to work with the mill owners about how to put a 
package together to be able to move forward with that.
    Then on what we are spending on litigation, I will have to 
give back to you on that. It is not something we normally 
track.
    Senator Murkowski. It has to be a huge expense for you.
    Mr. Tidwell. It is the same staff that prepare the 
projects. It is the same staff that puts a lot of the planning 
together. They then have to be able to pull the information 
together to put the records together for the court and work 
with the attorneys.
    Senator Murkowski. Well, if you can get us that 
information, I think it would be helpful, Chief.
    Mr. Tidwell. We will give you an estimate of what it is 
costing.
    Senator Murkowski. All right, and we want to work with you 
on these retooling funds.
    Senator Udall.
    Senator Udall. Thank you, Madam Chair. I am going to let 
Senator Tester start on our side here with the questions.
    Senator Tester. You are a gentleman and a scholar. Thank 
you very much.
    And thank you, Madam Chair.
    I guess the most important question I have for you, Chief 
Tidwell--it is good to have you here. And you, too, Tony.
    How's the ticker?
    Mr. Tidwell. Woke up this morning, Senator, and I feel 
great. Thank you for asking.
    Senator Tester. Well, it is good to have you here.

                           FOREST MANAGEMENT

    Look, I don't need to tell you how important the sawmills 
are as a partner to the Forest Service. We don't want to drive 
these folks out of business, and then it all becomes a 
taxpayer-funded problem as far as forest management. I 
understand there was about 125-plus million board feet come out 
of the forests in Montana on about 9,000 acres. Eighty percent 
from my figures were either post and poles or saw logs, and 20 
percent was firewood.
    That sounds about correct? Your head is nodding?
    Mr. Tidwell. Yes.
    Senator Tester. Okay, good.
    So in terms of sound forest management, are you happy with 
those numbers?
    Mr. Tidwell. It is not near enough of what we need to be 
doing to change the conditions on the landscape, to restore the 
resiliency of those forests, and to reduce the wildland fire 
threat to our communities.
    I have tried to be really clear about the challenge we have 
in front of us, and the need for us to increase the pace and 
scale of restoration of our Nation's forests.
    Senator Tester. So if you had a magic wand, what would that 
number be? Or do you have a number for Montana? Would it be 
double that, triple that, half again as much?
    Mr. Tidwell. Well, I would look at the number of acres.
    Senator Tester. Yes.
    Mr. Tidwell. And I think that is really a key point that we 
need to be really focused on. We are talking 9,000 acres, and I 
think there is around 17 million acres of national forest in 
your State.
    Senator Tester. In Montana, yes.
    Mr. Tidwell. When I look at the need there, we need to be 
treating a lot more of the 9,000 acres. I can give you a more 
accurate figure, but it definitely needs to be probably closer 
to at least four times that each year.
    Senator Tester. Okay. And so what is the challenge that 
your agency faces? Is it a manpower issue? What is it?
    Mr. Tidwell. Well, definitely capacity is an issue. We are 
running at 35 percent fewer employees than what we had the last 
time we were approaching 3 billion board feet operations. We 
haven't been able to implement a lot of efficiencies over the 
past. We are looking forward to moving forward with the Farm 
Bill authorities.
    Your State has been a leader on that. That is going to also 
help us.
    The other thing is that, and especially in your State, we 
need to be able to move forward with some larger landscape 
projects, similar to what we have done in your neighboring 
States, where we can look at, not thousands, but tens of 
thousands to hundreds of thousands of acres with one 
environmental assessment.

                               FARM BILL

    Senator Tester. Amen. I agree with that.
    So let's talk about the farm bill stuff for a second that 
came out of the 2014 farm bill.
    Your forest supervisors, are they fully engaged in that? Do 
they know the tools that are available?
    Mr. Tidwell. They are. We are continuing to do addition 
training, and to be able to make sure they understand these new 
authorities and how to use those. It was there in the northern 
region where they did actually the first project. It was done 
last December. I think in your State, there are another five or 
six scheduled for this year.

                               WORKFORCE

    Senator Tester. Okay, so I want to ask a little bit about 
manpower. In Region 1, our region, there are about 15 
vacancies. That is about a quarter of your workforce. What are 
the implications of that from a forest management standpoint, 
and from a law enforcement standpoint, and a recreational 
standpoint?
    Mr. Tidwell. Well, we have had reductions in our workforce 
across-the-board and all the programs outside of our fire 
operations. So it has forced us to really set priorities about 
what work we can get accomplished, and recognizing there are 
just less employees than what we have had.
    At the same time, we continue to explore finding more ways 
to be more efficient. This budget request does allow for us to 
be able to get more forest restoration work done. It would 
allow us to be able to issue more contracts. It would allow us 
to actually hire a few more people. So it is moving in the 
right direction for us to be able to change this curve, this 
trend that we have been on.

                      LAND WATER CONSERVATION FUND

    Senator Tester. Okay, now I want to talk about the Land 
Water Conservation Fund for just a second. As you know, Montana 
has a number of collaborative efforts that are moving on, 
landscape scale, as you talked about, and forest management. I 
think LWCF plays a critical role in that success.
    Could you speak, and I have only a little over a minute 
left, but could you speak to what would happen if Congress 
fails to reauthorize LWCF, on a lot of the projects, whether in 
Montana or somewhere else? What would happen?
    Mr. Tidwell. Well, I think over time it would be more 
challenging for us to be able to address issues with endangered 
species, for instance. You would see some lands in your State 
and other States that would be converted to some type of 
nonproductive use, just because without the Forest Legacy 
Program, we would be losing that opportunity for conservation 
easements. Also, our costs for managing will stay the same 
because we still have to work around these small, isolated 
parcels. So you see those costs.
    But I think one of the key concerns is that as we see more 
and more private landowners lock up their land and not allow 
the public to cross their land to access the national forest--
and I can understand the reasons why they do that--that is what 
we have the potential to lose.
    So this program has been very successful, not only to 
provide certainty on access, but reduce costs. But especially 
in your State, when I look at the recovery of just the grizzly 
bear, and the work that we have done to acquire key parcels to 
provide connectivity between the various populations with 
grizzlies, without the LWCF program, there is no way we would 
have been able to acquire those corridors and be in such a 
successful position. We are now able to increase our active 
management because we provided for the habitat requirements for 
the grizzly bear.
    Senator Tester. Okay, well thank you, Chief. I appreciate 
your answers, and I also, just in closing, would say that I 
think that the firefighting costs and the fire suppression 
costs, I support you on the cap adjustment on that. I think it 
is critically important if you are going to do your job on a 
lot of things you just talked about.
    Thank you, Madam Chair.
    Senator Murkowski. Thank you, Senator Tester.
    Senator Blunt.

                       MARK TWAIN NATIONAL FOREST

    Senator Blunt. Thank you, Chairman.
    Chief, I want to talk to you a little about the Mark Twain 
National Forest. This is a topic we talked about last year. 
Last we talked about the Collaborative Forest Landscape Program 
in the Mark Twain, and I asked you at that hearing whether or 
not there would be prescribed burns that year. You answered 
that this coming year, you said you didn't know, that on that 
project they were going to be focused on doing timber harvest 
and not prescribed burning.
    Let me read that exactly so we know what you said. Your 
quotes were, ``This coming year, I do know''--``I do know''--
``that, on that project, they are going to be focused on timber 
harvest and not prescribed burning.'' That is the end of your 
quote last year.
    Now your staff then did call shortly after that and said 
you were mistaken, and so we put in the language last year in 
the bill, the report language, including the language that the 
subcommittee recommends that no funds shall be used for 
prescribed fires under the Missouri Pine-Oak Woodlands portion 
of the Collaborative Forest Landscape Restoration program 
(CFLRP) until such time as the controversy over whether it 
could possibly be successful was being resolved.
    There had been at least two burns in early February, so 
when we contacted the Forest Service on that, they said, well, 
we are actually conducting those burns under a different 
program.
    I thought the language was pretty clear that until we got 
this worked out that, we wouldn't be conducting--or we 
recommended that you not conduct those burns. You just feel 
like the language just doesn't give any direction? Or that you 
are not bound by what the subcommittee would like to see happen 
here?
    Mr. Tidwell. Senator, we want to work with the subcommittee 
and, of course, follow the direction you provide. But on the 
Mark Twain last year, they sold 54 million board feet of timber 
and harvested 48 million. When I look at that level of 
activity, and then with the prescribed burning that we need to 
do to be able to maintain and restore those forests, we need to 
do that together.
    We want to use our timber sales to be able to remove the 
merchantable material and make full use of that, but then at 
the same time, prescribed burning is one of the tools that we 
use to reduce the residual material that is left after a timber 
sale. So we need to be able to maintain the use of both tools.
    Now I know that in the past, there was a prescribed burn 
that did burn up some merchantable timber. I understand that 
happens from time to time. But often, we can just come back in 
there and salvage that material.
    So we really do need to be able to maintain the flexibility 
to do both. But we are always going to focus on using a timber 
sale or a stewardship contract to remove the merchantable 
material and then use prescribed burning to be able to remove 
the undergrowth.

              PRESCRIBED BURNING AND SAVANNAH RESTORATION

    Senator Blunt. So your testimony today would be that the 
prescribed burn is for that purpose, and no longer for the 
purpose of trying to restore the Savannah from some past time 
until we know whether that is possible. That really was the 
discussion we had last year about whether or not we have really 
had the science to know if under today's conditions you could 
ever restore the Savannah from a couple of hundred years ago, 
even if you burned everything down and started all over again.
    What are you burning for now?
    Mr. Tidwell. Depending on which project----
    Senator Blunt. In the Mark Twain, are the burns to try to 
restore the Savannah, or are the burns to truly get under the 
fueling levels?
    Mr. Tidwell. Well, it would be depending on which project. 
If we are following a timber sale, we would often use a 
prescribed burn to follow that. If we are trying to restore the 
Savannah, to be able to use fire, to be able to do that in 
conjunction with mechanical treatment, it is the work that 
needs to be done to restore these ecosystems.
    Senator Blunt. Is there a study going on to determine 
whether the Savannah could be restored or not?
    Mr. Tidwell. I am not aware. I will have to get back to you 
on that.

                  TIMBER SALES AND MONITORING RESULTS

    Senator Blunt. All right, let's get back on that.
    On the timber sales, while there is still a lot of timber 
left, and you and I know that.
    I will say, back to your earlier comment, the Missouri 
forest products industry believes that you have worked hard to 
try to identify in the last year harvestable and marketable 
timber. So that is a positive. I have not got a lot of positive 
things to say about this today, but that is a positive, and I 
do appreciate that.
    But, Chief, we just keep having such a hard time getting 
information. Last year, I met with the regional forester, 
Kathleen Atkinson, and asked for proof that this program could 
work. The response was, we will get back to you on that. And, 
of course, we never--not ``of course,'' but we didn't get any 
information. Actually, amazingly, we didn't get any information 
when we got back on that.
    I brought this up to you last year. You stated that you 
would share the monitoring information from the project and 
research that guides the type of projects we are putting on the 
ground. I don't think we got that information either.
    I don't want to spend our time and effort here doing things 
that can't work. In theory, in some of these burns, you are 
trying to restore a landscape from a couple hundred years ago. 
Surely, it is worth a little time to see the science of whether 
that is even possible or not. I am just asking to work harder 
with us to be responsive.
    These questions are not designed to create a problem for 
you. They are designed to try to help you and I together solve 
a problem and see if we are moving toward a point that is 
achievable. I don't think that is too much to ask.
    I am just asking again today, Chief, to work with us on 
that and be more responsive to both the science that may be out 
there and the questions that we ask. I hope you can do that.
    Mr. Tidwell. Senator, I will personally look into this and 
provide you with the information we have from the monitoring 
and the science that supports the work that they are trying to 
get accomplished out there on the savannah.
    Senator Blunt. Thank you, Chairman.
    Senator Murkowski. Thank you, Senator Blunt.
    Senator Udall.

                      FIRE DISASTER CAP ADJUSTMENT

    Senator Udall. Thank you.
    Chief, I wanted to focus in a little bit on the budget 
framework for fire suppression funding with the new disaster 
cap adjustment. As you know, this subcommittee worked very hard 
last year to pass this legislation as part of the 2015 Omnibus 
appropriations bill. Ultimately, we weren't successful, but we 
can't give up.
    The disaster cap is the key to breaking the cycle of fire 
borrowing and putting an end once and for all for the need to 
steal funds from land management programs to pay for emergency 
firefighting needs. Many of the programs that we borrow funding 
from to fight fires are the same programs that create a more 
resilient landscape to resist wildfire.
    Can you talk about how important this proposal is to the 
administration's overall vision for reducing the threats of 
wildfires?
    Mr. Tidwell. Well, Senator, it is essential. As we look at 
what has happened just over the last 13, 14 years, the percent 
of our budget has gone from around 14 percent to over 40 
percent. If you add hazardous fuels funding into that, it gets 
to over 50 percent of our budget that is now focused on dealing 
with wildland fire.
    Under a constrained budget, and as much as I would like to 
tell you that the cost of suppression is going to go down in 
the future, the 10-year average is going to continue to go up. 
I think there are 2 years in the 10-year average that are less 
than $1 billion. When those fall off the average, you are going 
to see the 10-year average jump up.
    It is just essential that we find a way to recognize that 
we need to provide the funding for fire suppression the year 
that it is occurring. We are going to take whatever actions 
necessary to suppress fires where we need to suppress fires. As 
impactful as it is for us to have to stop operations and 
transfer funds, we have no choice, but we are going to do that.
    So we are going to pay for the cost of fire suppression one 
way or another. So the idea that we could just have a mechanism 
so that we could pay for it during the current year instead of 
shutting down operations and transferring money, and then 
asking for Congress to repay those funds the next year, or the 
year after--and I appreciate Congress' willingness to pay back 
those funds over the years, but we cannot ever replace the time 
that we have lost.
    Often August and September, those are critical field 
months. When we shut down operations, we never get that time 
back. Often a project, even if it is just postponed, we often 
lose the window to be able to implement it. Conditions change 
on the landscape. So these are the impacts of this transfer 
that are very hard for us to quantify.
    Last year, we put out reports for every State that showed 
the impacts to each State from having to transfer money. But it 
did not begin to capture the impacts of just losing that time, 
and that field season that we lost. So it is essential for this 
program that we find a way to get this legislation passed and 
that we no longer have to transfer money each year, and 
recognize that a very small percentage, 1 percent of these 
fires, should be treated as a natural disaster, not unlike 
other natural disasters that we treat and fund accordingly.
    Senator Udall. Thank you, Chief. The one thing here that I 
think is important, we have the budget process coming up. I 
think it is very important, I hope you pass the message back to 
Secretary Vilsack and Secretary Jewell, that they work with the 
new budget chairs for the House and the Senate. I think if we 
can get it in there, we will have a much better chance to 
proceed.

                    VALLES CALDERA NATIONAL PRESERVE

    In just the little bit of time I have left, we talked 
yesterday--and thank you for coming into the office--about the 
Valles Caldera National Preserve. Could you tell us how you 
have resolved the funding issues there, and what you are 
working on, and what you see the plans are for that?
    Mr. Tidwell. Well, we are working closely with the National 
Park Service. The lands were transferred last December, and the 
funding that was provided for the Valles Caldera, we have that 
ready to be transferred to the Park Service as soon as they 
have their budget structure set up to handle that.
    In addition, with the Collaborative Forest Landscape 
Restoration program (CFLRP) that encompassed part of the Valles 
Caldera along with the adjoining national forest, we were not 
able to transfer the CFLRP funds to the Park Service, but we 
are transferring other appropriated funds to the Park Service 
to be able to continue that work that was planned for this 
year, and to continue to work with the trust that is in the 
process of implementing the work.
    So we have that money set aside, ready to be transferred to 
the National Park Service. So as far as all the work that was 
planned to occur this year in the Valles Caldera, that should 
all go forward as planned.
    Senator Udall. Great, thank you very much. We really 
appreciate the Forest Service and the National Park Service 
working together to make sure that there is a seamless 
transition there. Thank you.
    Senator Murkowski. Senator Daines.
    Senator Daines. Thank you, Madam Chair.
    Senator Murkowski. Got a lot of Montanans here this 
morning.

                              TIMBER SALES

    Senator Daines. That is right. Montanans on that side. 
Montanans on this side.
    Good to have you here this morning, Chief Tidwell.
    It was a month ago I was back home in Montana, travelled 
across the State. And we spent a lot of time talking about what 
is going on in our national forests and in timber. I was in 
Columbia Falls. I was in Missoula. I was in Bozeman. We were 
meeting with sawmill operators, sportsman groups, conservation 
groups, county commissioners.
    In fact, they have sawmill operators there who are looking 
at layoffs that happened last fall because of, frankly, stopped 
timber sales, and fears as spring breakup is coming up earlier 
in the West because of the warm February and the warm early 
start to March.
    To hear a sawmill operator concerned, he has his son who 
has some special medical needs, and to possibly lose their 
health insurance, have to go to Spokane every week just for 
this, just to hear these stories of the human condition right 
now as we face declining access here to timber. Yet, here we 
are surrounded by 17 million acres in Montana of forest, 11 
million acres where they probably have access to if you 
subtract out the wilderness and the roadless areas, and we 
can't get enough logs.
    I ask, what is the constraint? Why are the sawmills running 
at two-thirds capacity across the State? Because we can't get 
enough logs, as we are staring at 11 million acres of timber 
that we could access on our Federal lands.
    The Forest Service anticipates selling 3.2 billion board 
feet of timber in fiscal year 2016. It is a modest increase 
over this year's target. That is a step in the right direction, 
but my understanding the ASQ, the allowable sale quantity, in 
the plans by the Forest Service exceeds 6 billion board feet, 
twice as much as what is being sold today.
    We heard from groups across Montana a month ago, whether 
from the sawmills to the conservation groups, that increasing 
responsible harvest can have positive environmental and social 
impacts, reducing the risk of wildfire. It is not going to be 
the catchall, but it is part of management and risk reduction, 
improving wildlife habitat, improving watersheds, improving 
water quality, maximizing carbon sequestration in our forests, 
and expanding recreational opportunities. So we have got 
agreement on the spectrum back home.
    And I know, Mr. Tidwell, your volume targets are informed 
in large part by your resources and the time it takes to 
prepare and execute timber sales, as you have noted today. But 
setting aside those factors for a moment, do you agree that in 
principle that increasing responsible harvest, consistent with 
the forest plans, would have positive impacts on creating and 
sustaining forest-related jobs, as well as improving the health 
of the forest?
    Mr. Tidwell. Yes. I mean, you mentioned the level of 
agreement that we have on what work needs to occur to restore 
these national forests. It is greater today than it has ever 
been in my entire career. We are seeing some progress being 
made in other parts of the country more than what we are seeing 
there in Montana, even though I appreciate the work that our 
folks did last year working with all of our partners--they 
basically put under contract the most acres and the most board 
feet that we have had in a long time.
    We are moving in the right direction, but it is not enough 
of what is needed to really restore these forests. We need to 
be able to look at these larger landscapes and to have more 
multiyear contracts in place, so that those mill owners can 
make the investments. They can take those contracts to the bank 
to borrow the money.

                   NATIONAL ENVIRONMENTAL POLICY ACT

    Senator Daines. It is shocking talking to the mill 
operators. When I asked where are you getting your logs today? 
And literally today--here we are surrounded by millions of 
acres of Federal lands in Montana--they are bringing logs in 
from Oregon, Washington, Wyoming, and Canada, to try to keep 
the mills operating. One of the challenges we are facing back 
home, and, certainly, we are talking about this all time, is 
looking what is going on with these objections and the 
litigation.
    Looking at the Region 1 staff data that was provided to us, 
since the beginning of fiscal year 2009, 46 of the 65 
noncategorical exclusion National Environmental Policy Act 
(NEPA) projects with a timber component were appealed, or more 
recently objected to. Twenty-five of the 65 were litigated.
    The problem we have now with our timber folks back home is 
they are giving up because of the uncertainty of pursuing the 
path down--some say, why aren't they making more applications? 
Well, there is so much uncertainty now on the outcomes because 
of the objections and litigation and appeals and so forth, they 
are going out of State and even to Canada to get logs today. 
Even a number of the collaborative-driven projects have been 
litigated or have litigation pending--the collaboratives. Colt 
Summit was one of those, and the East Reservoir project on the 
Kootenay.
    In your recent testimony for the Energy and Resources 
Committee, you indicated that such obstruction has an adverse 
impact and clearly can divert Forest Service staff from 
clearing new timber sales. So focusing now on looking at 
solutions and working together on this, because I think we both 
agree we have a problem, I think requiring all projects to go 
through a pre-decision objections process was a good step, but 
events on the ground in Montana suggest it is not sufficient. 
It is not enough.
    What additional solutions do you support to further 
discourage unnecessary obstruction and litigation in Montana 
and other impacted States, so the Forest Service can be 
liberated to do its important work?
    Mr. Tidwell. Well, I think there are a couple things. We 
need to first maintain what is proving to be successful, and as 
you have mentioned, the collaborative efforts there in your 
State are making a difference.
    We have gone to court, and I will use Colt Summit as a 
perfect example. When we have gone to court there, we not only 
have the State and the county, but we have environmental groups 
that are standing with the Forest Service, arguing to the judge 
that this is a good project, this is a good timber sale.
    Senator Daines. Just back on that, we agree on the 
collaboratives. I support that. But even our collaboratives are 
being litigated, so I think we need additional protections. I 
guess what I would ask is--I am running out of time here--would 
you commit to working with me to develop some mutually 
acceptable solutions here to work through this?
    Mr. Tidwell. Yes. I am more than willing to sit down with 
this subcommittee and with you personally to be able to look at 
what we can do as we move forward to be able to build on the 
success, to be able to get the treatment on the land that is 
necessary to restore these forests.
    I do believe the more that we can be talking about what is 
needed on the land, what we need to be able to do to restore 
these forests--and yes, one of the key outputs is going to be 
timber. It is going to be saw logs. It is essential that we 
maintain that integrated wood products industry. Otherwise, 
there is no way we are going to be able to do the work.
    Senator Daines. Well, we were at 600 million board feet at 
the peak. We were at 100 million board feet last year. We have 
been pretty flat. And so what we are asking for here is--we 
understand we are never going to get the 600 million again, 
most likely. It has been an over 80 percent decline. We have 
lost 20 of our 30 sawmills--lost.
    But what we would like to see is let's take that 100 
million up to maybe 200 million, maybe 300 million board feet, 
off of our Federal lands. That would be a tremendous boost 
right now to our sawmills and to our timber industry back home, 
as well as making our forests healthier.

                          SECURE RURAL SCHOOLS

    And our counties right now are dealing with Secure Rural 
Schools (SRS) and so forth. They are in trouble because there 
is no more revenues coming off the forests.
    Mr. Tidwell. Well, Senator, once again, I commit to work 
with you. I think your approach on that will be able to get it 
up to a sustainable level that not only the industry can rely 
on, but it will actually be enough acres being treated where we 
can make a difference, so that 10 years from now, we can have a 
different discussion about the conditions of the forest in your 
State versus having the same discussion 10 years from now.
    Senator Daines. I look forward to that discussion, too. 
Thank you, Chief Tidwell.
    Senator Murkowski. Thank you, Senator Daines.
    Boy, you know, this conversation is just the same whether 
you are up north in Alaska or whether you are sitting there in 
Montana. It just is not improving.

                             TIMBER HARVEST

    You are talking about what is going on in your region. Last 
year, we noted in appropriations language that over the last 10 
years, the timber supply in Region 10 up in Alaska has been 
constrained to less than 10 percent of the allowable sale 
quantity in the land management plan. We have seen handfuls of 
our small mills closed down.
    It just has not gotten any better. Whether it is in the 
Tongass, or clearly the comments we have heard from both you 
and Senator Tester here this morning, we talk about certainty 
and the need for longer term contracts.
    We are so with you there, Chief, so with you. In fact, we 
agreed so much that we included in the report language from 
fiscal year 2015 a directive to you, and said that in order to 
restore confidence in this supply, and allow for investment in 
new facilities, we reminded you of the Forest Service pledge to 
prepare and offer the 4-year timber sales.
    So we provided specific language. We directed the Forest 
Service to prepare and offer within 2 years the four 10-year 
timber sales as promised. So even when we provide that 
directive to give us that longer term contract, to give us that 
confidence, nothing on the ground changes.
    I don't disagree that you have got a hard job here managing 
things, but I don't know what to tell the folks in the Tongass 
anymore, the guys that are trying to hold on to some family-
owned operations. And the only reason that they are still in 
existence is because they and their families, this is what they 
know. This is who they are. But they are no longer living in a 
timber community. They are living in a community that is trying 
to exist off subsidies that we throw them with Secure Rural 
Schools. It is sad.
    We can blame litigation. That is, certainly, a factor. But 
I think we also have to recognize that the commitments that we 
are receiving from the Forest Service are not translating into 
increased harvest on our forests.
    So I am discouraged. I am just discouraged, because I don't 
know where the communities that I was born in like Ketchikan, 
or raised in like Wrangell, I don't know where they go.

                  RECREATION, HERITAGE, AND WILDERNESS

    I want to talk about the other aspects of industry within 
the regional economy, because there is more than timber, we 
know that. There is fishing. There is tourism.
    Tourism is, of course, based on the recreational 
opportunities out there, and yet in the last 5 years, the 
recreation heritage and wilderness budget has dropped 
approximately 14 percent across your budget. Alaska's 
recreation budget has been hit extra hard, over 23 percent over 
that same 5-year period.
    Tell me why the recreation programs in Alaska is 
disproportionately affected by past budget cuts compared to 
other regions, and what can the Alaska region expect from this 
2016 budget increase? Is it going to have any impact on the 
issuance of operating permits?
    I am trying to figure out whether there is any good news 
here for the people in the Tongass, and I am searching hard.
    Mr. Tidwell. Well, Madam Chair, with recreation, it 
actually supports more jobs than any other activity we have in 
the national forests now. Over 200,000 jobs are supported 
through recreation.
    Senator Murkowski. Well, that is clear in Alaska because we 
have run off the timber jobs.
    Mr. Tidwell. And in the past, in Region 10, the Alaska 
region, they have taken a greater, not proportionate, share of 
reductions in recreation funding. We have had to make some very 
difficult choices over the years as we have seen our budgets 
under constraint. Our programs under constrained budget can be 
very limiting to what we are able to do.
    I do know that in fiscal year 2015, we did make a shift for 
recreation funding in Alaska. They received an increase in what 
they had been receiving in the past to address this 
inconsistency. So as we move forward, we are going to look at 
how to better balance all these programs together.
    This budget request does maintain the level of recreation 
funding. I wish it was more. But until we can fix this fire 
issue, it takes up so much of our constraint that we are going 
to continue to see these impacts. You will see slight increases 
there in your State with recreational funding, but this is 
something that needs to be addressed across-the-board.
    We just have to find some ways to fix the fire suppression 
issue, so that we can have more flexibility within our budget 
requests to be able to address these issues.

                             ROADLESS RULE

    Senator Murkowski. Well, Chief, I carry with me in the file 
that I haul everywhere a few maps, because I am big into maps. 
And if your policies are going to shut off our timber 
opportunities in the Tongass, and you say, well, move to 
recreation, move to tourism, and you disproportionately reduce 
those dollars that go to Alaska, and then you tell us that part 
of the plan is we have to move towards more renewable 
resources. We absolutely agree there. But yet, we don't have 
the ability to get around the roadless rule in Alaska.
    It just kind of suffocates you after a while, and you have 
seen my big map, the roadless area inventory. For colleagues, 
this is the whole southeastern part of the State of Alaska. 
This is also the Tongass, because Southeast is the Tongass. 
Everything in red is categorized as roadless under the roadless 
rule and is not available for renewable hydroelectric power or 
other development.
    So timber reduction and recreation, not even available for 
accessing renewable hydroelectric power or other development 
that will allow us to reduce our energy costs.
    These are tough hearings for me, Chief. They are tough 
because the people of my State bear the consequences.
    So my time has expired. I am going to turn to my colleague.
    Senator Udall will let Senator Leahy take a breath, or if 
he's ready to go, we will turn to him. I am done here. We will 
defer here.
    Senator Udall. Senator Leahy, we are ready for you to go if 
you want, or I will go ahead.
    Senator Leahy. Why don't you go ahead?

               SOUTHWEST ECOLOGICAL RESTORATION INSTITUTE

    Senator Udall. Okay, thank you very much.
    Chief, the Southwest Ecological Restoration Institute, 
which is a collaboration between New Mexico Highlands 
University, Northern Arizona University, and Colorado State 
University, and the Forest Service, is a terrific source of 
applied research and ideas for improving forest health, 
preventing wildfires, protecting watersheds, creating jobs 
connected to national forests.
    With increasing effects from climate change, like prolonged 
droughts and less snowpack in our national forests, there are 
additional strains on the critical water resources in New 
Mexico. The institute I think does great work in engaging and 
educating people in New Mexico on forest and watershed 
management, and I can't see a better time for them to be doing 
this kind of work.
    Despite the benefits of the Forest Service, the funding for 
the institute has kind of stagnated in the last few years at 
$1.5 million, even though they have submitted appropriate and 
timely projects. Do you feel this level of funding is adequate 
for the good work the Southwest Ecological Restoration 
Institutes do? And is the funding for the three individual 
institutes based on their annual submissions of projects, or is 
it just based on historic levels of an archaic formula?
    Mr. Tidwell. Well, Senator, just like with so many of our 
programs, we have had to make some very difficult choices about 
setting priorities with our constrained budget. Where I wish we 
could provide additional funding for the institute, I do feel 
that the funding we are providing allows them to build and 
continue their programs.
    They have been very helpful in the past, especially when 
they first started to pull the information together about the 
different treatments we need to do with ponderosa pine in 
different parts of the southwest. Your questions about water, 
drought, that needs to be addressed are another good reason for 
this institute to continue.
    We leave it up to the institute to decide the funding 
between the different facilities, but I feel that this is a 
good balance for where we are at right now. In the future, if 
we once again can get into a different budget situation, no 
longer having to put so much of our budget into fire, this 
would also provide us an opportunity to expand these programs.
    Senator Udall. That is why I led with the fire cap 
situation, because I think we need to work with you on that, so 
the other good programs that are going on in the Forest Service 
budget, that they are able to be funded.

           COLLABORATIVE FOREST LANDSCAPE RESTORATION PROGRAM

    Shifting now to the Collaborative Forest Landscape 
Restoration program, New Mexico is home to two of the 23 
current Collaborative Forest Landscape Restoration projects. By 
all reports, these projects are succeeding in improving habitat 
and watershed quality, creating employment for youth and adults 
from nearby Pueblos, Native American Pueblos, and increasing 
timber production.
    The President's budget calls for an increase of $20 million 
for the Collaborative Forest Landscape Restoration program from 
$40 million to $60 million. What are your plans for the 
additional funding requested? Will you start new projects or 
provide higher levels of funding to existing projects?
    Mr. Tidwell. Senator, it will be both. With the success we 
are having with the 23 projects, there is a need to provide 
some additional funding to those 23. But at the same time, we 
also want to expand and be able to look at adding additional 
projects online, recognizing that all of these projects, it 
takes a few years for them to become fully effective. That is 
what we are seeing with the projects that we have had online 
now, some of them for 5 years, some for 3 years.
    The report we will be sharing next week, will show the 
accomplishments that we are making. These exceeded, when it 
comes to acres of restoring our forest vegetation. The key 
output of timber has exceeded. Areas about dealing with road 
conditions is an area we need to expand work in, and also in 
noxious weeds, another target area.
    When we have talked to all of these 23, they all feel very 
confident they are going to meet their 10-year goals, so we 
want to use this report, we will be sending up, as another 
reason why we should expand this program. It is really making a 
difference.
    The other key thing is that many of these projects, without 
this program--and this comes from the members of the 
collaboratives--they'll tell you that without this, there is no 
way we would have been able to look at doing projects on 10,000 
to 20,000 acre areas without extensive appeals and objections 
or lawsuits. That is the other benefit of this program. The way 
it is designed, the collaborative requirements that have gone a 
long way to reducing the conflicts and controversy, and allows 
us to be able to do these projects on much larger scales, and 
that is an additional benefit.
    Senator Udall. And you really hit it on the head. I think 
the two projects in New Mexico, the Southwest Jemez Mountains 
project and Zuni Mountains project near Gallup, New Mexico, 
they have worked collaboratively. Where you may have had a 
situation where there was litigation or it was slowed down, 
because of this collaborative work, they have been able to move 
forward. So we appreciate all the good work there.
    Senator Daines, did you have another round?
    Senator Daines. I do, and then I will be finished.
    Senator Udall. Okay, that is fine. I am finished.

                    TIMBER HARVEST TARGET IN MONTANA

    Senator Daines. All right, appreciate it.
    So I want to go back. Senator Tester brought up a point of 
discussion. You indicated that, ideally, harvests in Montana 
national forests could be at four times in terms of acreage. I 
think it was that 9,000-acre question, that we could increase 
by four times the number of acres versus what is currently 
being done. And just looking at the numbers, I know in Montana 
last year, about 113 million board feet is what was harvested. 
Our allowable sale quantity (ASQ) for Montana Federal lands is 
371 million board feet, and I think our sustainable long-term 
yield is 440 million.
    There is an old saying, ``If you aim at nothing, you will 
hit it,'' so I just want to get to the numbers here for a 
moment.
    Of that 113 million board feet that was harvested last 
year, a significant part of that, about a third, was firewood. 
As we are looking at moving forward trying to increase these 
numbers, do you think given the acreage, the four times the 
number that was discussed, do you think it would be reasonable 
to suggest we might be able to at least double our volumes, 
given that we are a quarter of our long-term sustainable yield, 
we are a third of our ASQs. I mean, seems like doubling would 
not be unreasonable?
    Mr. Tidwell. Well, Senator, I think last year, the region 
met its target, self-imposed target, close to 300 million board 
feet. That shows you an example of the work that needs to be 
done, and be able to sustain that and actually build on that.
    I go back to my time when I was in the region, and when we 
looked at the conditions of the forests and what really was 
needed--the level of treatment, the number of acres that needed 
to be restored--that 300 million board feet, it is just one of 
the key outputs. But it does reflect on the number of acres 
that need to be treated.
    Your other point that you made about the biomass that is 
being removed, it is a combination of saw logs, posts and 
poles, and firewood. I think the more that people understand 
what we are about, what we are trying to accomplish on the 
landscape, I think that can go a long way to address some of 
the conflict we still see in Montana.
    There are perceptions out there that folks believe that 
when we are proposing restoration work that includes a timber 
sale, that it is a clear cut from ridge top to streamside. Then 
they base a lot of their opposition on that level of concern 
versus the reality that we are restoring these forests, 
thinning out these forests.
    Senator Daines. They are healthier forests. It is 
environmentally the best thing we can do right now. It's 
responsible timber practices.
    I guess coming back to the point, do you think, just 
looking at the raw metrics here, that if we are at 113 million 
board feet, and we were once at time at 600 million, and we 
have got ASQs at 371, long-term has a 440, I mean, thinking of 
getting something between 200 million and 300 million board 
feet seems like a reasonable target to shoot for.
    Mr. Tidwell. The 300 million board feet is very reasonable.

             OUTFITTERS AND GUIDES: MINIMUM WAGE EXEMPTION

    Senator Daines. Okay, thank you.
    I want to shift gears for a moment to an issue our 
outfitters are having back home. Outfitters and guides in 
Montana, they are the ultimate small-business owners in 
Montana. Usually, it is a husband and wife running the 
operation. They don't have a big human resources department. 
They don't have a legal department. It is usually a couple 
folks trying to make ends meet.
    They have expressed concerns to me about the Forest Service 
application, the Department of Labor final rule enforcing the 
new minimum wage regulations for Federal contractors.
    I really think the States could take the lead in this 
issue. The State of Montana recognizes this industry of 
outfitting is unique. It is a unique industry in Montana. It 
serves an important purpose, to protect our outdoor heritage 
and, certainly, the unmatched landscapes we have.
    In fact, Montana has carved out in exemption for outfitters 
and guides in its overtime pay requirements because of the 
nature of the business.
    Chief Tidwell, considering the severe economic impact on 
these small businesses in looking at this $10.10 mandate coming 
out of Federal Government, and the value that outfitters and 
guides provide to public lands, would the Forest Service 
consider a similar exemption to overtime requirements like we 
did in the State of Montana?
    Mr. Tidwell. Well, Senator, we are currently looking at the 
Department of Labor's rule to really understand the flexibility 
that is provided within that rule, especially when it comes to 
outfitters and guides. I fully recognize the problems, and the 
issues.
    I want to first take the time that we need to fully 
understand the flexibility that is within the Department of 
Labor rule, so that we can move forward with this in a way that 
also will work for the outfitters and guides.
    Senator Daines. And they have been a great partner. I know 
they have worked together on performing trail maintenance, 
wildlife monitoring. It is kind of the boots on the ground out 
there, in terms of what is going on in our national forests and 
the wilderness. I just would ask if you would take into account 
the impacts on the outfitting industry in this proposed rule 
coming from the Federal Government and will work with our State 
folks back home. We have solved that problem in the State of 
Montana by carving out an exemption with the uniqueness of the 
outfitters and overtime.
    This is not just punching the clock in that kind of 
business. I would just ask if you would help us on this. They 
are very, very concerned as they are looking at their permits 
going forward and how they make ends meet with these mandates 
coming out of Washington.
    Mr. Tidwell. Well, I share your concerns, understand their 
concerns, about how to move forward with this in a way that is 
fair, and also, at the same time, that it is workable for them. 
The last thing we want to do is to put anyone out of business. 
That eliminates the jobs.
    Senator Daines. It does, and they have these great stories 
where they are taking some of these kids where they maybe have 
challenging pasts. They bring them out for a summer. They spend 
a summer in the wilderness, out there with an outfitter, and 
they are life-changing experiences for these kids. There are 
concerns that they can't provide those opportunities with these 
mandates on these wage issues coming out of Washington. They 
just don't make any sense for us on the ground back home.
    Mr. Tidwell. Well, we are anxious to fully understand the 
flexibility that is provided in the rule, so that we can look 
at it. We are in somewhat of a unique situation. When it comes 
to a contract to do roadwork or something like that, the 
proposals can factor the additional wages into their bids, so 
it is equitable, it is easy. With our outfitter and guide 
permits, especially since they don't all expire at the same 
time either, so that is the other challenge.
    Senator Daines. That is the exemption, the carve-out that 
we are looking for that would be helpful.
    Thank you. I am out of time.
    Senator Udall. The Senator's time has expired. Thank you, 
Senator Daines.
    Senator Leahy.

                         FOREST LEGACY PROGRAM

    Senator Leahy. Thank you very much.
    Chief, good to see you. Mr. Dixon, good to see you.
    We have a lot of people, as you know, who when they talk 
about the U.S. Forest Service, think first and foremost of the 
National Forest System. Of course, those of us who live in the 
Northeast and those in the South know you do a lot of work 
beyond the national forest boundaries.
    You have a lot of support of private forest landowners. 
Owning a tree farm in Vermont, which we do without any 
subsidies, I will quickly add, I am well aware of what you do. 
And I am concerned we are losing private forestland at a very 
alarming rate, some to subdivisions, but usually conversion to 
nonforest uses.
    So I was pleased to see the strong funding request for the 
Forest Legacy program. This is near and dear to my heart since 
I included the program, back in the 1990 Farm Bill when I was 
chairman, but it has conserved close to 2.5 million acres of 
working forest. I mean, you know all these numbers. I just want 
to put it on the record.
    Fiscal year 2016, States submitted a list of eligible 
Forest Legacy projects that require $147 million in Federal 
funding and probably leverage another $90 million in private 
funds. But last year, we were able to fund this program at only 
$53 million.
    If we were able to increase the funding for Forest Legacy, 
do you believe that there is sufficient supply of top-quality 
projects across the country?
    Mr. Tidwell. Senator, there is no question. We have always 
had more requests with very high-quality projects than we are 
able to fund. These are projects that come from the States. 
Each State puts together their list and then they send it in. 
We have a national committee go through the projects and set 
the priorities. So these are strongly supported by the States, 
local communities, and they are all willing landowners. We have 
never, ever been able to come close to funding all the projects 
that we would like to.
    Senator Leahy. These are projects that you have looked at 
and said, look, they are valid projects, if we had the money, 
we would do it?
    Mr. Tidwell. Yes, there is no question about the validity 
and the benefits, not only to the landowner, but the benefits 
to the public with these projects.

                          WHITE-NOSE SYNDROME

    Senator Leahy. The other area I have been talking for years 
about is white-nose syndrome in bats. I remember when I first 
raised it, people thought I was referring to a character I 
heard about in a comic book named Batman. But as you know and I 
know, it is wreaking havoc across the country.
    We have a lot of farms and huge farms that suddenly are 
going to have to switch to use far more pesticides to control 
the pests that bats used to naturally keep in check. I think it 
is in around 25 States, and is now one of the most destructive 
wildlife diseases. We are watching very closely in Vermont as 
the Fish and Wildlife Service considers what we do.
    Some are concerned that the endangered species protection 
of the Northern long-eared bat, it may actually be 
counterproductive. It may negatively impact our forestland 
management, but not do anything on white-nose syndrome.
    Are there resources the Forest Service can provide to help 
the private landowners to address dwindling bat populations, 
but also to encourage them in conservation practices? I realize 
that is a kind of a generalized question, but I hear it in 
various forms back home.
    Mr. Tidwell. Well, first, Senator, thank you for your early 
recognition of this problem. I can remember when we first 
started closing access to caves, there was a lot of opposition 
to that and folks questioned the Forest Service. Fortunately, 
we were able to take some steps to slow down the spread.
    We are continuing our research to look at ways to be able 
to use native soil bacteria to maybe slow down the fungus, and 
using some ultraviolet light treatments to be able to reduce 
the effectiveness of the fungus. But, it is going to take a 
while for our bat populations to recover from the white-nose 
syndrome.
    At the same time, we have concerns about the potential 
listing of especially the long-eared bat, and if it could have 
any impacts on our ability to restore the Nation's forests. So 
we are working very closely with the Fish and Wildlife Service 
so that they have the science that we have about white-nose 
syndrome. Also, they'll fully understand our practices when it 
comes to maintaining and restoring the Nation's forests. And I 
look at having healthy, resilient forests as also good for the 
bats.
    Senator Leahy. Your stewardship contracting authority, can 
that help?
    Mr. Tidwell. Yes, both our stewardship contracting 
authority can help, and also our Forest Stewardship program 
that we have that provides assistance to private landowners, so 
they can put in place the forestry practices that they need to 
be able to restore the forests and maintain sustainable forests 
on their private land.
    Senator Leahy. Thank you.
    Thank you, Madam Chair.
    Senator Murkowski. Thank you, Senator Leahy.
    I am getting a little more familiar with that bat of yours. 
I do understand it eats the mosquitoes, and that is a good 
thing.
    Senator Leahy. Yes, I think we need really big ones to go 
after the mosquitoes in Alaska. I have heard you talk about 
getting the baseball bat and going after them. But I have 
actually seen a difference at our own tree farm in Vermont. 
When we sit out there in the evening, we could always count on 
several bats from a small bat cave about a quarter of a mile 
behind our house. Bats would come out and there would be no 
mosquitoes. Those bats have disappeared. The mosquitoes are now 
back.
    I don't mean that as a scientific analysis, but I can just 
imagine what it must be like if you have hundreds of acres of 
farmland, and you count on the bats to keep the pests down. 
This is a problem.

                             TSUNAMI DEBRIS

    Senator Murkowski. I appreciate you bringing it up.
    Chief, I have just a couple more Alaska-specific, and then 
my final question will be as it relates to the air tankers. 
This first one is just more of a heads-up.
    I met with the head of NOAA, Dr. Sullivan, and mentioned to 
her when we are talking about tsunami debris clean up along 
Alaska's coastal shores, we have great efforts, collaborative 
efforts, to address the tsunami debris. But, as you know, so 
much of the land along our coast, whether it is in the Tongass 
or up into the Prince William Sound area and the Chugach, these 
are our national forest areas, once the debris is collected, 
you have got to cache it somewhere until it can be airlifted 
out or barged out.
    It was brought to my attention that they had had great 
cooperation working with the folks at the Chugach, in terms of 
dealing with Forest Service lands and being able to talk 
cooperatively, but not so much on the Tongass. Now, we are 
trying to chase it down, but what I was told was that basically 
the Forest Service in the Tongass had said don't bring the junk 
up above the tidelands, we don't want that to be our problem.
    We are chasing that down, because I understand there have 
been good cooperative efforts in marine debris cleanup in the 
lower part of southeast, but I am just giving you a heads-up on 
that. I don't ask you to address it today, but just to be aware 
of it.

  SAFE, ACCOUNTABLE, FLEXIBLE, EFFICIENT, TRANSPORTATION EQUALITY ACT 
                               (SAFETEA)

    One thing that did come to our attention just yesterday was 
a letter that the Governor sent our delegation. It was pretty 
distressing. It said that the Government, your agency, is 
refusing to follow a 2005 agreement with the State after Alaska 
has fulfilled its side of the agreement years ago. This is 
relating to Federal highway funding back in 2005 under SAFETEA-
LU.
    The State had granted the Federal Government access 
easements across all submerged lands in return for the Federal 
Government granting easements for State transportation projects 
across some identified corridors that were identified by a map 
in Section 4407 of the law. The act said, not withstanding any 
other provision of law, this agreement was approved.
    So now we have the Forest Service saying it cannot provide 
the easements within the corridors identified back in 2005 
because of the National Environmental Policy Act (NEPA) issues 
and concerns that NEPA reviews are required, and because the 
corridors aren't inventoried roadless area lands.
    Looking at that letter and given the language of the 
Section 4407, it is just not acceptable. Congress exempted the 
corridors from NEPA. It exempted the corridors from inventoried 
roadless regs, even though, at the time, the roadless rules in 
effect in Alaska, because of the 2003 settlement agreement 
between the State and Forest Service--an agreement that the 
administration lost little time in not supporting once court 
review began again.
    So I don't know whether you are on top of this issue. It 
just came to my attention. And again, it is very, very 
unsettling, and just not acceptable.
    I don't know if you have comment on that at this time.
    Mr. Tidwell. Senator, I am not aware of this. I appreciate 
you bringing it up. I will look into it.

                              AIR TANKERS

    Senator Murkowski. All right, I would appreciate that. So 
we will talk back and forth on that.
    Then the question that I alluded to in my opening was where 
we are with air tankers, and I don't think any colleagues have 
brought it up here this morning. But I think we all understand 
the need to modernize our air tanker fleet. The fiscal year 
2015 omnibus provided $65 million for air tanker modernization. 
I understand that at this point in time, you haven't finalized 
the plans to spend out the money, but a few questions about 
where you may be going with this.
    Have you conducted a cost comparison between acquiring air 
tankers and contracting planes?
    Mr. Tidwell. Well, with the funding that was provided in 
fiscal year 2015 to acquire an aircraft, we have entered into a 
contract to get a business case prepared to be able to look at 
what is the best way to move forward, which aircraft to 
acquire. We have done, in the past, some analysis between 
government-owned aircraft versus contract-owned aircraft, and 
we can provide the information that we put together on that. It 
is part of our overall strategy.
    This year we will have 21 large air tankers under contract 
by the peak of the fire season, in addition to being able to 
bring down planes from Alaska and Canada. Then also, we always 
have the mass units that are in reserve for that.
    Then we will be moving forward with bringing on the C-130Hs 
that were provided to us. We will have one late this fire 
season that will have a mass tank in it, and it will probably 
be around 2016 or 2017 before we bring those planes on.
    We are looking at the cost to operate those government-
owned versus contract. They are going to be comparable costs as 
far as operation and maintenance. We are going to contract out 
both the operation and the maintenance of those large air 
tankers. But we feel we need to have a mix of contracted 
aircraft and also government-owned, just so that we are never 
in a position like we were a few years ago, where we had to 
cancel a contract and it put us in a really tough situation in 
the middle of fire season.
    So having a combination of both where the government will 
own a few aircraft, and it will be contracted out for operation 
and maintenance, and then the majority of our fleet will be 
contracted aircraft, we see that as the best path forward.
    Senator Murkowski. So is that how you are going to be 
entering this coming fire season with this mix? And again, have 
you resolved or completed your analysis on the cost comparisons 
here?
    Mr. Tidwell. Well, we have done cost comparisons with the 
C-130Hs which are being provided to us. Those costs are going 
to be comparable to what we have with our contracted fleet.
    This year, we will have all contracted aircraft. The first 
C-130H, we will bring it on probably late this year. It will 
have a mass tank in it. We will use the aircraft in some 
limited basis just understanding some of the changes we want 
the Air Force to make on them before we receive the other 
planes. But this year, we will be only operating with the 
contracted aircraft.
    Senator Murkowski. And then next, hopefully?
    Mr. Tidwell. They'll be coming on probably in 2016 and 
definitely in fiscal year 2017. We should have at least three 
of them.
    Senator Murkowski. Okay, thank you.
    Senator Udall.

              FOREST MANAGEMENT PLANS AND LAND GRANT HEIRS

    Senator Udall. Thank you, Madam Chair.
    Just a couple of more questions here, Chief, from me.
    As you are probably aware, and I think we talked a little 
about it yesterday, but my State has a unique history with 
early Spanish settlers who received land grants from the King 
of Spain. We are talking now going back 400 years, in that 
range. These grants were subsequently recognized under Mexican 
law, and finally, to an extent, by the United States under the 
Treaty of Guadalupe Hidalgo at the end of the Mexican-American 
War.
    These non-Indian traditional communities still practice 
activities they have practiced with their families for 
generations. They do things like harvesting pinon nuts in the 
forests. They collect latias, which are utilized in buildings. 
They gather wood for heating in the winter and a variety of 
other projects.
    Most of the original land grant lands now overlap with 
Federal public lands primarily managed by the Forest Service, 
so it is important that these activities are considered during 
the current management plan revision process. As you know, your 
forest management plans are going through a revision in New 
Mexico, and that is happening in all of our national forests.
    So will you commit to work with the land grant heirs in New 
Mexico to provide reasonable access and consultation on land 
management decisions?
    Mr. Tidwell. Senator, yes. Our foresters are already 
reaching out to these folks to make sure that they are involved 
in the forest planning. I think on the Cibola, they even have 
them signed up as a cooperating agency, which I think is 
probably even the best way for us to be able to move forward.
    So we can make sure we are factoring in their traditional 
uses of the land in our planning. I feel very confident that we 
will be able to work closely with them to be able to continue 
these traditional uses.

                   FOREST SERVICE BILINGUAL OUTREACH

    Senator Udall. Great, thank you very much.
    And, Chief, this is also related, because as you probably 
know, related to the last question, we have a large bilingual 
Hispanic population. I think the numbers is, in more than a 
third of the households in New Mexico, Spanish and English are 
spoken in the home. Many listen to Spanish-language radio and 
watch Spanish-language TV.
    Can you talk about the Forest Service's bilingual outreach 
to Hispanic families and to Hispanics in New Mexico, if you are 
familiar with that?
    Mr. Tidwell. Yes, Senator. We have increased our efforts, 
not only our written products that are also produced in 
Spanish, but also to increase the opportunity where, if we need 
a translator in discussions we are having, whether it is with 
grazing permittees or just with operators, many of our 
employees in your State are also Spanish-speaking. So we are 
fortunate that we have that level of diversity in our 
workforce.
    But we want to take every effort that is necessary so that 
there are ways that everyone understands the full benefits of 
their national forests, about how to take advantage of this, 
how to understand the rules and regulations. We know that we 
have to increase our efforts to make sure that we are 
communicating.
    In your case, we are trying to make sure that all of our 
written materials are also put out in Spanish, and at the same 
time make sure we have the language skills necessary to be able 
to communicate effectively.
    Senator Udall. We actually have a constitutional 
requirement in New Mexico for bilingual materials at the State 
level, to show how much that Spanish history is reflected in 
our constitution.

                 LAS CONCHAS FIRE AND UTILITY COMPANIES

    Let me also just ask a quick question. There is an issue 
with the Las Conchas fire. It was started by a downed power 
line, which brings up the issue of maintaining rights-of-way on 
Forest Service land that is really critical. I just wonder, is 
the Forest Service working with utilities to ensure that fires 
like the Las Conchas will never happen again, even without 
setting aside funding specifically for partnerships to do that, 
and working with these co-ops? And I think you are familiar 
with this issue.
    Mr. Tidwell. Senator, a few years ago, we increased our 
efforts to work with the utility companies, not only to ensure 
that their rights-of-way are cleared of hazardous materials, 
and reducing potential of a tree coming down on their lines, 
but also to work with them to be able to expand doing fuels 
treatment beyond the rights-of-way. Many of the companies 
recognize that even a fire that doesn't take down a line, if 
they have to shut it down because of the smoke impact, whether 
it is a few days or a week, that it reduces not only the 
effectiveness of the line, but it reduces their ability to 
collect revenues off of that line.
    So we are actually expanding our work beyond the rights-of-
way, but actually to work with them in a partnership where they 
have their equipment in there to be able to address larger 
areas to reduce the fuels, to eliminate those tragic situations 
when we do get a power line that comes down and starts a fire.

                              AIR TANKERS

    Senator Udall. Great.
    Chairman Murkowski mentioned the Coast Guard C-130Hs and 
what you are working on there. I also believe it is urgent that 
we try to get your airplanes up and running, especially now 
that we are going to be heading into the fire season again. So 
however we can help on that, we really want to get that moving.

                       RESEARCH FUNDING QUESTIONS

    I have a couple of other questions I will submit for the 
record. They involve cuts that involve research and things like 
that, which I am sure have been caused by the situation we have 
with your forest fire funding in your agency. We have a 
situation where you have to pull money out to fight fires, and 
so some of the other crucial areas are cut.
    So I will submit those for the record, and really 
appreciate the hearing today, Madam Chair.

                             TIMBER HARVEST

    Senator Murkowski. Thank you, Senator Udall.
    And, Chief, thank you for being here with us this morning. 
Again, I acknowledge that you do have a tough job in balancing 
so much when it comes to management of our forests and the 
multiple use requirement.
    I know that we talk a lot about we have to resolve the fire 
borrowing, because that has kind of infiltrated decisions in so 
many other areas. But I think we also need to be honest that it 
doesn't all come back to fire borrowing. We can't blame it all.
    There are some policies that I think we have seen the 
administration take that have moved us away from that part of 
the multiple use which is managing our forests for timber 
harvest. I think that has been a policy decision that has 
shifted, whether it is in Montana or whether it is in Alaska or 
other parts of the country.
    So I would like us to get to that point where, again, we 
have agreement that our forests are a renewable resource, a 
renewable resource that needs to be managed, and carefully 
managed. The better we manage them, I think we know that works 
to reduce some of the hazardous fuels risks that we have and 
that we pay for.
    So as you move forward with implementation of your policies 
under these budgets, I think it is important that you hear 
where this subcommittee is coming from. And I think there have 
been several asks of members for you to work with them in a 
specific direction. I know we, certainly, have that. And I 
appreciate your willingness to do so.
    But again, I do share a little bit of the concern and, 
perhaps, disappointment that we have not been able to do better 
by some of our timber-reliant communities across the country.
    So again, Chief, I appreciate your leadership in difficult 
areas, and I thank you for coming before the subcommittee this 
morning.

                     ADDITIONAL COMMITTEE QUESTIONS

    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                   Questions Submitted to Tom Tidwell
             Questions Submitted by Senator Lisa Murkowski
    Question. The budget request calls for on overall reduction to 
Research and Development of about $4 million from the 2015 level. And, 
within this overall reduction is a proposed increase of $13 million in 
the Forest Inventory and Analysis (FIA) program. As a supporter of FIA, 
I am glad the Service has acknowledged the importance of the program 
and requested enough funding to extend FIA to interior Alaska. It is my 
understanding that the request is upwards of $5 million more than 
necessary to keep funding robust and to expand the program.
    What activities would the additional $13 million fund?
    Answer. The Forest Inventory and Analysis (FIA) Strategic Plan 
recently submitted to Congress, identifies the $13 million to cover 
implementation for all of Alaska including interior Alaska. The 
increase also enables a 5-year measurement cycle in the eastern United 
States:

  --production of annual reports on renewable biomass supplies and 
        carbon stocks at multiple spatial scales inclusive of ownership 
        categories;
  --annualized forest products monitoring system with improved coverage 
        of secondary manufacturing industries using wood;
  --enhanced remote sensing research and applications for immediate 
        operational improvement of land cover and land use monitoring;
  --an improved National Woodland Owner Survey to determine the goals 
        and objectives of private forest land owners, including Timber 
        Management Organizations and Real Estate Investments Trusts; 
        and
  --implementation of urban FIA in selected cities with State and local 
        partnership support.

    Question. What will be the impacts of the non-FIA reduction to the 
Forest and Rangeland Research be to capacity and output?
    Answer. The decrease to non-FIA work will not prevent other 
research projects from moving forward, but it will slow progress on 
both new and existing projects. Research on hazardous reduction, a very 
important component of healthy forest management tht is focused on 
finding cost-effective ways to use biomass and promote healthy, 
sustainable forests that are more resilient to catastrophic fire, will 
be affected. The Forest Service will take steps to minimize the impact 
of the proposed funding reduction on our existing staff. If reductions 
to the workforce occur, it will be through not filling vacant 
positions.
    Question. What would the impact of the budget request be on the 
Forest Service's focus on biomass uses and market development and 
expansion for non-merchantable timber products?
    Answer. In fiscal year 2016, we are requesting $32.3 million for 
biomass-related projects. Approximately $10 million would go towards 
grants to expand wood energy and wood products markets in order to 
support active forest management on National Forest System lands. In 
addition, we will continue to support the use of Statewide Wood Energy 
Teams to facilitate State efforts to make use of small-diameter wood 
generated from National Forest System and other forest lands with high 
wildfire risk. These funds would leverage additional matching support 
and bring more partners to the table in areas of the country with the 
most promising opportunities to expand markets for both wood energy and 
wood products.
    Question. According to the Forest Service's cut and sold reports 
for fiscal year 2014, stewardship contracts provided 30 percent of the 
timber volume sold in 2014, up from 27.5 percent last year, and up from 
less than 5 percent in 2004. In 2014 this authority was made permanent. 
You told this committee that you would begin the Rulemaking process to 
add Stewardship Integrated Resource Timber Contracts to the Small 
Business Administration Set-Aside Program as soon as stewardship 
contracting was reauthorized.
    What is the status of that rulemaking?
    Answer. The Forest Service has joined with the Small Business 
Administration (SBA) to prepare a joint Advanced Notice of Proposed 
Rule Making (ANPRM). The SBA published an ANPRM, in the Federal 
Register on March 25, 2015 (80 FR 15697-99), to solicit public comments 
on two main items:

  --The possibility of including saw timber volume sold as part of a 
        stewardship timber or stewardship services contract in the 
        calculation of the timber sale share of small business;
  --How timber sale appraisals should be performed for small business 
        set aside sales and associated costs and benefits to 
        stakeholders (i.e. should appraisals be to the nearest SBA mill 
        or remain to the nearest mill).

    The actual 5-year re-computation process will take place during 
October 2015 through March 2016, with the new small business market 
share(s) effective October 1, 2015. Under the current schedule the SBA 
rule should be completed before the 5-year re-computation of the SBA 
Set-Aside Program.
    Question. The retrofitted Coast Guard C130s are scheduled to begin 
coming online late this year. It seems to me that this is an 
opportunity to see if the Forest Service can effectively manage and 
maintain a fleet of large air tankers.
    Do you think it is wise for the Forest Service to purchase an air 
tanker without first evaluating the cost and effectiveness of an in-
house fleet versus contracted planes?
    Answer. The Forest Service has determined an in-house fleet as well 
as a contracted fleet makes the most financial sense. Owning a fleet of 
airtankers and contracting for aircrews, Integrated Logistics Support, 
and maintenance (field and depot level) is cost effective in the long 
run due to the ability to utilize the aircraft throughout the year for 
missions in support of both agency fire and resource objectives. This 
year-round operational model is not possible with the single purpose 
airtanker offered by private industry. Additionally, the majority of 
the overhead cost and additional personnel required to manage and 
maintain the aviation assets would be transferred to a contractor, 
providing the greatest flexibility to the agency.
    Question. Do you know how many support staff it will take to 
operate and maintain each C130H per year, and the annual cost of those 
services?
    Answer. Direct contract maintenance support of the aircraft during 
Initial Operating Capability (IOC) will require a crew of 7 and a 
possibility of a surge to 13 should there be 2 aircraft available at 
the same time. This is estimated to cost $1.193 million in fiscal year 
2015 and $1.73 million in fiscal year 2016. The flight crew contract 
consists of one program manager and five crew members: two pilots, one 
flight engineer and two loadmasters. The annual cost for this flight 
crew contract is $1.71 million in fiscal year 2015 and $2.27 million in 
fiscal year 2016. The U.S. Coast Guard will also provide operational, 
training, engineering, maintenance, and logistics support through an 
Interagency Agreement. USCG support is estimated to cost the Forest 
Service $3.9 million in fiscal year 2015 and $2.3 million in fiscal 
year 2016. The total cost for contracts and interagency support to 
operate and maintain the first two MAFFS equipped HC-130H aircraft is 
$6.8 million in fiscal year 2015 and $6.3 million in fiscal year 2016.
    Forest Service government employees will provide contract and 
operational oversight to one aircraft during fiscal year 2015 and 
fiscal year 2016. Two full-time employees will support the aircraft in 
fiscal year 2015 at a cost of $230,000. Another six employees will 
support the HC-130H program on a part-time basis; approximately one-
third of each employee's overall time. The cost for these employees in 
fiscal year 2015 is $197,000. The total cost in fiscal year 2015 for 
Federal employee support to the HC-130H program (and one operational 
aircraft) is $427,000. Government oversight will remain approximately 
the same with one aircraft or with multiple aircraft.
    Question. The administration has once again proposed doubling the 
amount of funding for the Collaborative Forest Landscape Restoration 
programs, despite of the fact that the agency either met or exceeded 
its goals on only 2 of the 12 performance measures. I continue to be 
concerned that this program is becoming simply another budget line item 
to fund work that could otherwise be accomplished better through other 
budget line items. There are many opportunities outside of CFLR to 
expand management nationwide.
    What assurances can you give me that current and future projects 
selected for this program will specifically meet all of its criteria 
and are not simply work that could be accomplished outside the program 
umbrella?
    Answer. The Collaborative Forest Landscape Restoration Advisory 
Committee evaluates project proposals and makes recommendations to the 
Secretary of Agriculture (USDA) to make selections. The committee 
evaluates proposals based on how well the projects fulfill the purposes 
of the authorizing legislation. Specifically, whether projects:

  --encourage collaborative, science-based restoration; support 
        ecological, economic, and social sustainability;
  --leverage local, national, and private resources; facilitate the 
        reduction of wildfire management costs; and
  --demonstrate varied approaches to achieve ecological and watershed 
        health objectives, and; use forest restoration byproducts to 
        offset treatment costs.

    Question. How has the CFLR program reduced unit costs, either for 
acres treated or per unit of wood produced?
    Answer. One example of a project finding efficiency through 
collaboration and large landscape restoration is the Four Forest 
Restoration Initiative (4FRI) in Arizona. 4FRI has issued 19 task 
orders to date, with an average per acre payment to the government of 
$41.15 per acre on 18 of those task orders. Task orders under a 
previous 10-year stewardship contract, White Mountain, cost the 
government an average of $500 per acre. Through conversations with 
partners and the focus on a large landscape in the phase one contract--
in addition to the growth of markets in northern Arizona--the project 
has helped create opportunities to generate net gains and increase 
capacity for restoration work. Ultimately, these contracts will have a 
positive impact on watershed function and resilience and hazardous 
fuels reduction while creating economic activity in local communities.
    Question. How have CFLR projects reduced litigation or expedited 
project completion?
    Answer. Several projects have seen large landscape decisions 
approved without appeals or objections, and as a member of the 
Uncompahgre Partnership in Colorado stated, ``there is no way a 17,000 
acre decision would not have been appealed without collaboration.'' By 
supporting project collaboration, the CFLRP program enables groups to 
address larger landscapes. The Deschutes Skyline project is a part of a 
25,000 acre NEPA decision, bolstered by the success of a thinning 
project that was the first on the district to not be litigated in 13 
years. Former litigants are now collaborators, acting as educators for 
the treatments proposed and carried out by the Forest Service.
    Question. Do you have data showing that CFLR project areas have 
reduced NEPA costs and increased the speed with which NEPA analysis is 
completed?
    Answer. We are not able to compare the speed and cost of NEPA 
between CFLR and non-CFLR projects because the average length of time 
required to reach a decision on a NEPA process varies greatly depending 
on many factors including: the extent of collaboration, size of 
analysis area, and natural resource issues specific to that project. 
Regardless of the program, we continue to look for opportunities to 
increase the scale of our analyses because it has the potential to save 
us more time by completing a single NEPA analysis as opposed to 
multiple analyses.
    Question. How many actual acres have been treated in CFLR project 
areas compared with non-CFLR acres since 2010? Do you know if those 
numbers represent increases or decreases based on the NFS unit's prior 
performance?
    Answer. The tables below show: (1) key performance measure 
accomplishments for the CFLR projects from 2010-2014; and (2) key 
performance measure accomplishments for the entirety of the National 
Forest units that contain part of a CFLR landscape from 2010-2014.
    Comparing these numbers provides a sense for what portion of 
overall National Forest accomplishments came from activities on the 
CFLRP landscape.

                                 TABLE 1: CFLRP ACCOMPLISHMENTS BY PROJECT AREA
                                     [Fiscal Year 2010 to Fiscal Year 2014]
----------------------------------------------------------------------------------------------------------------
                                                                                                        Total
                                                                                                     Fiscal Year
                                            2010        2011        2012        2013        2014       2010 to
                                                                                                     Fiscal Year
                                                                                                         2014
----------------------------------------------------------------------------------------------------------------
Four Forest Restoration Initiative:
 
  Forest Vegetation Established (acres)     1,921         121      11,360       3,833       2,660       19,896
  Forest Vegetation Improved (acres)...    12,764       8,864       4,712      24,519      18,409       69,269
  Green tons of biomass made available    382,357     220,977     275,483     728,557      92,747    1,700,121
   for bioenergy (green tons)..........
  Hazardous Fuels Treatments Outside       48,546       5,587       9,032       8,082      25,178       96,425
   the Wildland Urban Interface (acres)
  Hazardous Fuels Treatments within the    51,126      28,816      28,798      57,229      37,214      203,183
   Wildland Urban Interface (acres)....
  Invasive Plant and Noxious Weed           5,202       2,546       2,302       3,892         530       14,472
   Treatments (acres)..................
  Roads decommissioned (miles).........         0           0          35           9          19           62
  Stream Habitat Restored or Enhanced          15           0           2           0          34           50
   (miles).............................
  Terrestrial Habitat Restored or          59,745      99,751      10,167      48,570      86,043      304,276
   Enhanced (acres)....................
  Timber Volume Sold (mmbf) \1\........        69          47          51         128          92          387
 
Burney Hat Creek Basins:
 
  Forest Vegetation Established (acres)  ..........  ..........       962         313         332        1,607
  Forest Vegetation Improved (acres)...  ..........  ..........     1,472       1,040       2,113        4,625
  Green tons of biomass made available   ..........  ..........    27,402          33      18,754       46,189
   for bioenergy (green tons)..........
  Hazardous Fuels Treatments Outside     ..........  ..........     1,329         624       2,640        4,592
   the Wildland Urban Interface (acres)
  Hazardous Fuels Treatments within the  ..........  ..........     1,677         496         738        2,911
   Wildland Urban Interface (acres)....
  Invasive Plant and Noxious Weed        ..........  ..........         0           0           0            0
   Treatments (acres)..................
  Roads decommissioned (miles).........  ..........  ..........         0           0           0            0
  Stream Habitat Restored or Enhanced    ..........  ..........         0           0           0            0
   (miles).............................
  Terrestrial Habitat Restored or        ..........  ..........       974         540         980        2,494
   Enhanced (acres)....................
  Timber Volume Sold (mmbf) \1\........  ..........  ..........        13          30          16           59
 
Colorado Front Range:
 
  Forest Vegetation Established (acres)         0       1,047       1,100       1,564       1,199        4,910
  Forest Vegetation Improved (acres)...     1,091       5,370       2,181       5,758       5,414       19,814
  Green tons of biomass made available      5,514       1,128         459         260           0        7,361
   for bioenergy (green tons)..........
  Hazardous Fuels Treatments Outside            0           0           0           0         969          969
   the Wildland Urban Interface (acres)
  Hazardous Fuels Treatments within the     3,224       8,291       5,506       9,625       6,530       33,176
   Wildland Urban Interface (acres)....
  Invasive Plant and Noxious Weed             100       1,050         625         429         477        2,681
   Treatments (acres)..................
  Roads decommissioned (miles).........         0           4           5           0           7           16
  Stream Habitat Restored or Enhanced           0           0           0           0           4            4
   (miles).............................
  Terrestrial Habitat Restored or               0       1,407       6,615       1,414       4,163       13,599
   Enhanced (acres)....................
  Timber Volume Sold (mmbf) \1\........         8           3           6           3           3           23
 
Aador Calaveras Cornerstone:
 
  Forest Vegetation Established (acres)  ..........  ..........         0           0           0            0
  Forest Vegetation Improved (acres)...  ..........  ..........     1,348         303       1,429        3,079
  Green tons of biomass made available   ..........  ..........         0           0       2,340        2,340
   for bioenergy (green tons)..........
  Hazardous Fuels Treatments Outside     ..........  ..........       121       2,711           0        2,832
   the Wildland Urban Interface (acres)
  Hazardous Fuels Treatments within the  ..........  ..........       558       1,957         927        3,441
   Wildland Urban Interface (acres)....
  Invasive Plant and Noxious Weed        ..........  ..........       163         171          47          381
   Treatments (acres)..................
  Roads decommissioned (miles).........  ..........  ..........         0           0           0            0
  Stream Habitat Restored or Enhanced    ..........  ..........         4           2           1            7
   (miles).............................
  Terrestrial Habitat Restored or        ..........  ..........       676       1,032          53        1,761
   Enhanced (acres)....................
  Timber Volume Sold (mmbf) \1\........  ..........  ..........         0          12           0.4         12
 
Deschutes Collaborative Forest Project:
 
  Forest Vegetation Established (acres)         0           0         240         394       2,125        2,759
  Forest Vegetation Improved (acres)...         0         983       1,486       1,356       2,371        6,196
  Green tons of biomass made available      8,817      29,458      18,515       2,274       4,825       63,888
   for bioenergy (green tons)..........
  Hazardous Fuels Treatments Outside            0          66          30           0       4,071        4,167
   the Wildland Urban Interface (acres)
  Hazardous Fuels Treatments within the    18,828       5,440       7,654      11,570      10,453       53,945
   Wildland Urban Interface (acres)....
  Invasive Plant and Noxious Weed               0         973       1,422       1,140       2,085        5,620
   Treatments (acres)..................
  Roads decommissioned (miles).........         0           0           3           2           0            5
  Stream Habitat Restored or Enhanced           1          16           9           7          13           45
   (miles).............................
  Terrestrial Habitat Restored or               0         975       2,524       5,057          10        8,566
   Enhanced (acres)....................
  Timber Volume Sold (mmbf) \1\........         3           8           8           2          24           45
 
Dinkey Project:
 
  Forest Vegetation Established (acres)        28         535          33          56           2          654
  Forest Vegetation Improved (acres)...        43       1,052         977       1,578         368        4,017
  Green tons of biomass made available      3,630       8,948       1,291           0           0       13,869
   for bioenergy (green tons)..........
  Hazardous Fuels Treatments Outside        1,650         384       2,790         862       2,062        7,748
   the Wildland Urban Interface (acres)
  Hazardous Fuels Treatments within the     1,500       3,826         948       3,300       1,864       11,438
   Wildland Urban Interface (acres)....
  Invasive Plant and Noxious Weed               0           9           0           0           0            9
   Treatments (acres)..................
  Roads decommissioned (miles).........         0           0           0           0    ..........          0
  Stream Habitat Restored or Enhanced           0           1           0           0           0            1
   (miles).............................
  Terrestrial Habitat Restored or               0       4,051           0       4,800       2,619       11,470
   Enhanced (acres)....................
  Timber Volume Sold (mmbf) \1\........         0           8           7           2           1           19
 
Grandfather Restoration Project:
 
  Forest Vegetation Established (acres)  ..........  ..........         0           0          44           44
  Forest Vegetation Improved (acres)...  ..........  ..........       312         523         339        1,174
  Green tons of biomass made available   ..........  ..........         0           0           0            0
   for bioenergy (green tons)..........
  Hazardous Fuels Treatments Outside     ..........  ..........        71         309    ..........        380
   the Wildland Urban Interface (acres)
  Hazardous Fuels Treatments within the  ..........  ..........     5,191       5,322       3,439       13,952
   Wildland Urban Interface (acres)....
  Invasive Plant and Noxious Weed        ..........  ..........       127          15           0          142
   Treatments (acres)..................
  Roads decommissioned (miles).........  ..........  ..........         0           0    ..........          0
  Stream Habitat Restored or Enhanced    ..........  ..........         0           3           3            6
   (miles).............................
  Terrestrial Habitat Restored or        ..........  ..........     2,129           6       5,345        7,480
   Enhanced (acres)....................
  Timber Volume Sold (mmbf) \1\........  ..........  ..........         4           0           1            5
 
Kootenai Valley Rhode Island:
 
  Forest Vegetation Established (acres)  ..........  ..........        76         657         143          876
  Forest Vegetation Improved (acres)...  ..........  ..........       238         484         561        1,283
  Green tons of biomass made available   ..........  ..........     2,745         585      10,646       13,976
   for bioenergy (green tons)..........
  Hazardous Fuels Treatments Outside     ..........  ..........         0           0         262          262
   the Wildland Urban Interface (acres)
  Hazardous Fuels Treatments within the  ..........  ..........       707         723       2,414        3,844
   Wildland Urban Interface (acres)....
  Invasive Plant and Noxious Weed        ..........  ..........       413         409         543        1,365
   Treatments (acres)..................
  Roads decommissioned (miles).........  ..........  ..........         1           0           1            2
  Stream Habitat Restored or Enhanced    ..........  ..........         3           2           6           10
   (miles).............................
  Terrestrial Habitat Restored or        ..........  ..........         0           0       2,572        2,572
   Enhanced (acres)....................
  Timber Volume Sold (mmbf) \1\........  ..........  ..........        10           3          21           34
 
Lakeview Stewardship:
 
  Forest Vegetation Established (acres)  ..........  ..........       319         537       5,251        6,107
  Forest Vegetation Improved (acres)...  ..........  ..........     6,107       3,614      11,879       21,600
  Green tons of biomass made available   ..........  ..........         0           0          14           14
   for bioenergy (green tons)..........
  Hazardous Fuels Treatments Outside     ..........  ..........    14,888       8,546      19,248       42,682
   the Wildland Urban Interface (acres)
  Hazardous Fuels Treatments within the  ..........  ..........     4,608           0      14,784       19,392
   Wildland Urban Interface (acres)....
  Invasive Plant and Noxious Weed        ..........  ..........     1,036         516         704        2,256
   Treatments (acres)..................
  Roads decommissioned (miles).........  ..........  ..........         0           0          16           16
  Stream Habitat Restored or Enhanced    ..........  ..........       141           9          10          160
   (miles).............................
  Terrestrial Habitat Restored or        ..........  ..........     2,654       4,159      19,646       26,459
   Enhanced (acres)....................
  Timber Volume Sold (mmbf) \1\........  ..........  ..........         0           2          15           17
 
Longleaf Pine Ecosystem Restoration and
 Hazardous Fuels Reduction:
 
  Forest Vegetation Established (acres)  ..........  ..........         0         148         269          417
  Forest Vegetation Improved (acres)...  ..........  ..........         0         614         127          741
  Green tons of biomass made available   ..........  ..........       187           3    ..........        190
   for bioenergy (green tons)..........
  Hazardous Fuels Treatments Outside     ..........  ..........       261           0    ..........        261
   the Wildland Urban Interface (acres)
  Hazardous Fuels Treatments within the  ..........  ..........    51,181      85,440      86,914      223,535
   Wildland Urban Interface (acres)....
  Invasive Plant and Noxious Weed        ..........  ..........       150           0         439          589
   Treatments (acres)..................
  Roads decommissioned (miles).........  ..........  ..........         7           0    ..........          7
  Stream Habitat Restored or Enhanced    ..........  ..........         3           0           0            3
   (miles).............................
  Terrestrial Habitat Restored or        ..........  ..........    86,851     120,276      99,954      307,081
   Enhanced (acres)....................
  Timber Volume Sold (mmbf) \1\........  ..........  ..........         3          10          16           29
 
Longleaf Pine in Florida:
 
  Forest Vegetation Established (acres)     3,649       1,359       2,678       2,338       1,693       11,717
  Forest Vegetation Improved (acres)...     1,500         554       2,115       3,119       4,407       11,695
  Green tons of biomass made available          0           0         105           1           0          105
   for bioenergy (green tons)..........
  Hazardous Fuels Treatments Outside        8,830      15,578      40,134       3,907       4,320       72,769
   the Wildland Urban Interface (acres)
  Hazardous Fuels Treatments within the     4,285      18,985      12,628      25,401      37,817       99,116
   Wildland Urban Interface (acres)....
  Invasive Plant and Noxious Weed               0           0          80           0           0           80
   Treatments (acres)..................
  Roads decommissioned (miles).........         0          16          16          16    ..........         48
  Stream Habitat Restored or Enhanced           0           0           0           0           0            0
   (miles).............................
  Terrestrial Habitat Restored or           1,300      42,592      12,114       3,015           0       59,021
   Enhanced (acres)....................
  Timber Volume Sold (mmbf) \1\........         0          13          24           5          29           71
 
Missouri Pine Oak:
 
  Forest Vegetation Established (acres)  ..........  ..........         0         252         787        1,039
  Forest Vegetation Improved (acres)...  ..........  ..........     5,920         657       6,072       12,649
  Green tons of biomass made available   ..........  ..........         0           0       6,307        6,307
   for bioenergy (green tons)..........
  Hazardous Fuels Treatments Outside     ..........  ..........     3,772       9,621      11,793       25,186
   the Wildland Urban Interface (acres)
  Hazardous Fuels Treatments within the  ..........  ..........    13,570           0       8,323       21,893
   Wildland Urban Interface (acres)....
  Invasive Plant and Noxious Weed        ..........  ..........         0         153         354          508
   Treatments (acres)..................
  Roads decommissioned (miles).........  ..........  ..........         0           0    ..........          0
  Stream Habitat Restored or Enhanced    ..........  ..........         0           0           0            0
   (miles).............................
  Terrestrial Habitat Restored or        ..........  ..........    20,174       1,760      10,850       32,784
   Enhanced (acres)....................
  Timber Volume Sold (mmbf) \1\........  ..........  ..........         2          13          11           25
 
Northeast Washington Forest Vision:
 
  Forest Vegetation Established (acres)  ..........  ..........        79           0           0           79
  Forest Vegetation Improved (acres)...  ..........  ..........       739       2,157       2,221        5,117
  Green tons of biomass made available   ..........  ..........         0           0    ..........          0
   for bioenergy (green tons)..........
  Hazardous Fuels Treatments Outside     ..........  ..........     1,268         672         298        2,238
   the Wildland Urban Interface (acres)
  Hazardous Fuels Treatments within the  ..........  ..........     6,745       4,709       5,181       16,635
   Wildland Urban Interface (acres)....
  Invasive Plant and Noxious Weed        ..........  ..........       534           0           0          534
   Treatments (acres)..................
  Roads decommissioned (miles).........  ..........  ..........         0           0    ..........          0
  Stream Habitat Restored or Enhanced    ..........  ..........         9           0          12           21
   (miles).............................
  Terrestrial Habitat Restored or        ..........  ..........     1,679           0       5,181        6,860
   Enhanced (acres)....................
  Timber Volume Sold (mmbf) \1\........  ..........  ..........        19          17          11           46
 
Ozark Highlands Ecosystem Restoration:
 
  Forest Vegetation Established (acres)  ..........  ..........        39         251         268          558
  Forest Vegetation Improved (acres)...  ..........  ..........       466       2,177       1,691        4,334
  Green tons of biomass made available   ..........  ..........         0           0    ..........          0
   for bioenergy (green tons)..........
  Hazardous Fuels Treatments Outside     ..........  ..........     3,336      10,022       9,758       23,116
   the Wildland Urban Interface (acres)
  Hazardous Fuels Treatments within the  ..........  ..........    14,820      15,033       3,296       33,149
   Wildland Urban Interface (acres)....
  Invasive Plant and Noxious Weed        ..........  ..........     2,089       3,328       1,503        6,920
   Treatments (acres)..................
  Roads decommissioned (miles).........  ..........  ..........         0           0    ..........          0
  Stream Habitat Restored or Enhanced    ..........  ..........        15          21          37           73
   (miles).............................
  Terrestrial Habitat Restored or        ..........  ..........    34,058      56,887      48,313      139,257
   Enhanced (acres)....................
  Timber Volume Sold (mmbf) \1\........  ..........  ..........         3          18           3           23
 
Selway-Middle Fork:
 
  Forest Vegetation Established (acres)       148           0           0           0          18          166
  Forest Vegetation Improved (acres)...        19         616         616         498          18        1,767
  Green tons of biomass made available          0         938       1,217          15         860        3,030
   for bioenergy (green tons)..........
  Hazardous Fuels Treatments Outside        1,755      16,700      13,389      23,917         665       56,426
   the Wildland Urban Interface (acres)
  Hazardous Fuels Treatments within the       317       3,404       1,094           0          25        4,840
   Wildland Urban Interface (acres)....
  Invasive Plant and Noxious Weed           2,597       3,404       4,110       3,595       1,116       14,821
   Treatments (acres)..................
  Roads decommissioned (miles).........         0           8          27          24           6           66
  Stream Habitat Restored or Enhanced           0           4          32          19           9           63
   (miles).............................
  Terrestrial Habitat Restored or               0           0      13,166       1,860         750       15,776
   Enhanced (acres)....................
  Timber Volume Sold (mmbf)*...........         0           8           5           0.1         7           20
 
Shortleaf Bluestem Community:
 
  Forest Vegetation Established (acres)  ..........  ..........       140       1,085         665        1,890
  Forest Vegetation Improved (acres)...  ..........  ..........     1,330       2,332       1,093        4,755
  Green tons of biomass made available   ..........  ..........     5,391       7,024       6,742       19,157
   for bioenergy (green tons)..........
  Hazardous Fuels Treatments Outside     ..........  ..........    16,469      28,561      12,498       57,528
   the Wildland Urban Interface (acres)
  Hazardous Fuels Treatments within the  ..........  ..........    33,120      33,041      38,709      104,870
   Wildland Urban Interface (acres)....
  Invasive Plant and Noxious Weed        ..........  ..........        23           0          21           44
   Treatments (acres)..................
  Roads decommissioned (miles).........  ..........  ..........        19           0           1           20
  Stream Habitat Restored or Enhanced    ..........  ..........         0           0           0            0
   (miles).............................
  Terrestrial Habitat Restored or        ..........  ..........    57,937     103,023      75,421      236,381
   Enhanced (acres)....................
  Timber Volume Sold (mmbf) \1\........  ..........  ..........        34          41          47          121
 
Southern Blues Restoration Coalition:
 
  Forest Vegetation Established (acres)  ..........  ..........         0           0           0            0
  Forest Vegetation Improved (acres)...  ..........  ..........     1,044      10,017       5,039       16,100
  Green tons of biomass made available   ..........  ..........    13,013       6,509      13,031       32,553
   for bioenergy (green tons)..........
  Hazardous Fuels Treatments Outside     ..........  ..........     3,544      22,251      20,483       46,278
   the Wildland Urban Interface (acres)
  Hazardous Fuels Treatments within the  ..........  ..........     8,247       8,268       5,788       22,302
   Wildland Urban Interface (acres)....
  Invasive Plant and Noxious Weed        ..........  ..........         0           0          72           72
   Treatments (acres)..................
  Roads decommissioned (miles).........  ..........  ..........         0           0    ..........          0
  Stream Habitat Restored or Enhanced    ..........  ..........        14           0          11           25
   (miles).............................
  Terrestrial Habitat Restored or        ..........  ..........     9,832       4,932         923       15,687
   Enhanced (acres)....................
  Timber Volume Sold (mmbf) \1\........  ..........  ..........        24          48          60          132
 
Southwest Crown:
 
  Forest Vegetation Established (acres)     1,755       1,916       2,650       2,879       1,615       10,815
  Forest Vegetation Improved (acres)...         0          76         259         621       1,857        2,813
  Green tons of biomass made available    131,870       6,441         728          95       5,315      144,449
   for bioenergy (green tons)..........
  Hazardous Fuels Treatments Outside        1,089       2,352         641       2,047       1,207        7,336
   the Wildland Urban Interface (acres)
  Hazardous Fuels Treatments within the     4,141       1,877       1,917       1,847       3,331       13,113
   Wildland Urban Interface (acres)....
  Invasive Plant and Noxious Weed               0       2,960       5,447       1,596         242       10,245
   Treatments (acres)..................
  Roads decommissioned (miles).........         0          11           0          25          23           58
  Stream Habitat Restored or Enhanced           0          14          52           7          28          102
   (miles).............................
  Terrestrial Habitat Restored or               0      11,201       7,598       7,054       2,270       28,123
   Enhanced (acres)....................
  Timber Volume Sold (mmbf) \1\........        23          13           0.8         1          16           53
 
Southwest Jemez Mountains on the Santa
 Fe National Forest:
 
  Forest Vegetation Established (acres)         0           0           0           0           0            0
  Forest Vegetation Improved (acres)...       890         649         861         720         106        3,226
  Green tons of biomass made available      3,000           0           0         887      10,464       14,351
   for bioenergy (green tons)..........
  Hazardous Fuels Treatments Outside            0         326           0       2,906           0        3,232
   the Wildland Urban Interface (acres)
  Hazardous Fuels Treatments within the     1,623       3,623       2,668       5,420       6,242       19,576
   Wildland Urban Interface (acres)....
  Invasive Plant and Noxious Weed               0           4          21          87          60          171
   Treatments (acres)..................
  Roads decommissioned (miles).........         0          11           0           3           0           14
  Stream Habitat Restored or Enhanced          12           2           3           0           0           17
   (miles).............................
  Terrestrial Habitat Restored or           1,933         640       3,546       4,806       4,000       14,925
   Enhanced (acres)....................
  Timber Volume Sold (mmbf) \1\........         0.8         0           0           0.6         2            3
 
Tapash:
 
  Forest Vegetation Established (acres)         0           0           0           0           0            0
  Forest Vegetation Improved (acres)...       600         371           0       1,197         631        2,799
  Green tons of biomass made available          0           0           0           0           0            0
   for bioenergy (green tons)..........
  Hazardous Fuels Treatments Outside            0           0       1,104           4       3,040        4,148
   the Wildland Urban Interface (acres)
  Hazardous Fuels Treatments within the     5,100           0       3,869         794       2,893       12,656
   Wildland Urban Interface (acres)....
  Invasive Plant and Noxious Weed               0           0       1,318         679       1,969        3,966
   Treatments (acres)..................
  Roads decommissioned (miles).........         0           0           0           0           4            4
  Stream Habitat Restored or Enhanced           0           1           0           4          10           14
   (miles).............................
  Terrestrial Habitat Restored or               0       2,907         746       1,657      12,490       17,800
   Enhanced (acres)....................
  Timber Volume Sold (mmbf) \1\........         1          15           7          13          10           46
 
Uncompahgre Plateau:
 
  Forest Vegetation Established (acres)       401         559         295           0         147        1,402
  Forest Vegetation Improved (acres)...       261       2,026       1,205           0         765        4,257
  Green tons of biomass made available          0           0           0           0           0            0
   for bioenergy (green tons)..........
  Hazardous Fuels Treatments Outside        1,782       4,891         771         339       3,652       11,435
   the Wildland Urban Interface (acres)
  Hazardous Fuels Treatments within the       556       2,871         723         678         336        5,164
   Wildland Urban Interface (acres)....
  Invasive Plant and Noxious Weed             610         448         222         392         745        2,418
   Treatments (acres)..................
  Roads decommissioned (miles).........        30           0          30          36          13          109
  Stream Habitat Restored or Enhanced           0           1           2          15           0           18
   (miles).............................
  Terrestrial Habitat Restored or           2,943       3,739       8,202       7,438       2,000       24,322
   Enhanced (acres)....................
  Timber Volume Sold (mmbf) \1\........         3           6           3           5           3           20
 
Weiser Little Salmon Headwaters:
 
  Forest Vegetation Established (acres)  ..........  ..........     1,053       1,232         737        3,022
  Forest Vegetation Improved (acres)...  ..........  ..........     2,409         948       2,697        6,054
  Green tons of biomass made available   ..........  ..........     8,559      10,640      35,360       54,559
   for bioenergy (green tons)..........
  Hazardous Fuels Treatments Outside     ..........  ..........     6,675      16,531      16,042       39,248
   the Wildland Urban Interface (acres)
  Hazardous Fuels Treatments within the  ..........  ..........     7,480       3,706       2,529       13,714
   Wildland Urban Interface (acres)....
  Invasive Plant and Noxious Weed        ..........  ..........     2,169       1,778       2,365        6,312
   Treatments (acres)..................
  Roads decommissioned (miles).........  ..........  ..........        33          37          30          100
  Stream Habitat Restored or Enhanced    ..........  ..........        37          24          23           84
   (miles).............................
  Terrestrial Habitat Restored or        ..........  ..........    22,872      18,146      15,534       56,552
   Enhanced (acres)....................
  Timber Volume Sold (mmbf)*...........  ..........  ..........        13          12          23           48
 
Zuni Mountains:
 
  Forest Vegetation Established (acres)  ..........  ..........         0           0           0            0
  Forest Vegetation Improved (acres)...  ..........  ..........         0       3,279       3,763        7,042
  Green tons of biomass made available   ..........  ..........         0           0       4,463        4,463
   for bioenergy (green tons)..........
  Hazardous Fuels Treatments Outside     ..........  ..........         0           0    ..........          0
   the Wildland Urban Interface (acres)
  Hazardous Fuels Treatments within the  ..........  ..........     1,700       3,407       4,144        9,251
   Wildland Urban Interface (acres)....
  Invasive Plant and Noxious Weed        ..........  ..........         0           0           0            0
   Treatments (acres)..................
  Roads decommissioned (miles).........  ..........  ..........         0           0           4            4
  Stream Habitat Restored or Enhanced    ..........  ..........         0           0           0            0
   (miles).............................
  Terrestrial Habitat Restored or        ..........  ..........       120       1,800         744        2,664
   Enhanced (acres)....................
  Timber Volume Sold (mmbf)*...........  ..........  ..........         4           6           6           16
----------------------------------------------------------------------------------------------------------------
\1\ Official Timber Volume Sold by National Forest comes from official PTSAR (Periodic Timber Sale Attainment
  Reports) which provides volume in both hundred cubic feet (ccf)--converted here to million board feet (mmbf).


                   TOTAL CFLRP 5 YEAR ACCOMPLISHMENTS
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Forest Vegetation Established (acres)................             67,957
Forest Vegetation Improved (acres)...................            214,406
Green tons of biomass made available for bioenergy             2,126,922
 (green tons)........................................
Hazardous Fuels Treatments Outside the Wildland Urban            509,256
 Interface (acres)...................................
Hazardous Fuels Treatments within the Wildland Urban             945,097
 Interface (acres)...................................
Invasive Plant and Noxious Weed Treatments (acres)...             73,605
Roads decommissioned (miles).........................                530
Stream Habitat Restored or Enhanced (miles)..........                703
Terrestrial Habitat Restored or Enhanced (acres).....          1,335,909
Timber Volume Sold (mmbf) \1\........................              1,256
------------------------------------------------------------------------
\1\ Official Timber Volume Sold by National Forest comes from official
  PTSAR (Periodic Timber Sale Attainment Reports) which provides volume
  in both hundred cubic feet (ccf)--converted here to million board feet
  (mmbf).


           TABLE 2: TOTAL ACCOMPLISHMENTS BY ACTIVITIES FOR NATIONAL FORESTS WITH CFLRP PROJECT AREAS
                                     [Fiscal Year 2010 to Fiscal Year 2014]
----------------------------------------------------------------------------------------------------------------
                                                                                                      Total
                                                                                                 Accomplishments
                                        2010        2011        2012        2013        2014       Forests With
                                                                                                  CFLR Projects
----------------------------------------------------------------------------------------------------------------
Apache-Sitgreaves, Coconino,
 Kaibab, and Tonto National
 Forests--Four Forest Restoration
 Initiative:
 
  Forest Vegetation Established         2,820       1,817      11,750       4,691       3,562          24,640
   (acres).........................
  Forest Vegetation Improved           13,916      11,587       6,751      25,490      20,566          78,310
   (acres).........................
  Green tons of biomass made          404,374     375,049     408,201     906,136     204,864       2,298,625
   available for bioenergy (green
   tons)...........................
  Hazardous Fuels Treatments           62,255      53,438      32,432      22,587      63,986         234,698
   Outside the Wildland Urban
   Interface (acres)...............
  Hazardous Fuels Treatments within    53,336      53,487      36,857      59,828      61,964         265,471
   the Wildland Urban Interface
   (acres).........................
  Invasive Plant and Noxious Weed       8,165       6,573       6,705       8,584       8,871          38,897
   Treatments (acres)..............
  Roads decommissioned (miles).....        19           1          42           0           0              61
  Stream Habitat Restored or               43          69          72         124          66             374
   Enhanced (miles)................
  Terrestrial Habitat Restored or     107,982     194,945      59,199     194,147     115,607         671,879
   Enhanced (acres)................
  Timber Volume Sold (mmbf) \1\....        85          76          70         154         117             502
 
Arapaho-Roosevelt and Pike San
 Isabel National Forests--Colorado
 Front Range:
 
  Forest Vegetation Established         4,048       3,516       2,925       3,636       2,992          17,118
   (acres).........................
  Forest Vegetation Improved            2,996       8,040       5,584       7,145       6,808          30,573
   (acres).........................
  Green tons of biomass made           62,756      33,409      22,345      23,943      20,780         163,233
   available for bioenergy (green
   tons)...........................
  Hazardous Fuels Treatments            5,279       4,446       6,521       2,366       3,220          21,833
   Outside the Wildland Urban
   Interface (acres)...............
  Hazardous Fuels Treatments within    21,009      17,840      14,881      16,761      14,091          84,582
   the Wildland Urban Interface
   (acres).........................
  Invasive Plant and Noxious Weed       4,914       8,148       7,466       8,113      12,003          40,644
   Treatments (acres)..............
  Roads decommissioned (miles).....        12          51          29           0           0              91
  Stream Habitat Restored or               13          20          28          24          41             125
   Enhanced (miles)................
  Terrestrial Habitat Restored or       4,705      25,744      32,474      37,519      36,564         137,006
   Enhanced (acres)................
  Timber Volume Sold (mmbf) \1\....        28          23          26          20          29             127
 
Cibola National Forest--Zuni
 Mountain:
 
  Forest Vegetation Established           611         373           0           0           0             984
   (acres).........................
  Forest Vegetation Improved            2,316         834         602       5,616       8,616          17,984
   (acres).........................
  Green tons of biomass made           36,460      43,822      32,346      35,300      21,682         169,610
   available for bioenergy (green
   tons)...........................
  Hazardous Fuels Treatments           11,065       6,380       3,258       1,658       1,506          23,867
   Outside the Wildland Urban
   Interface (acres)...............
  Hazardous Fuels Treatments within     8,107       3,641       2,582       5,887       9,101          29,318
   the Wildland Urban Interface
   (acres).........................
  Invasive Plant and Noxious Weed       1,016         925         559         504         126           3,129
   Treatments (acres)..............
  Stream Habitat Restored or                0           2           1           1           1               5
   Enhanced (miles)................
  Terrestrial Habitat Restored or      21,878      20,075      17,520      18,924      28,719         107,116
   Enhanced (acres)................
  Timber Volume Sold (mmbf) \1\....         7          12          12          13          11              56
 
Clearwater National Forest (Now
 part of the Nez Perce Clearwater
 National Forest)--Selway-Middle
 Fork:
 
  Forest Vegetation Established         4,310       3,454       2,730         693           0          11,187
   (acres).........................
  Forest Vegetation Improved            4,056       2,844       2,177       2,083           0          11,160
   (acres).........................
  Green tons of biomass made           24,128      28,398      27,283      19,737           0          99,546
   available for bioenergy (green
   tons)...........................
  Hazardous Fuels Treatments            7,134      12,283       8,771      19,970           0          48,158
   Outside the Wildland Urban
   Interface (acres)...............
  Hazardous Fuels Treatments within     2,718       1,722       1,671         811           0           6,922
   the Wildland Urban Interface
   (acres).........................
  Invasive Plant and Noxious Weed      19,041       1,143       4,810       2,095           0          27,090
   Treatments (acres)..............
  Roads decommissioned (miles).....        28          35          24           0           0              87
  Stream Habitat Restored or               88          68          42           0           0             198
   Enhanced (miles)................
  Terrestrial Habitat Restored or       7,000      12,825      11,141           0           0          30,966
   Enhanced (acres)................
  Timber Volume Sold (mmbf) \1\....        23          36          21          32           0             113
 
Colville National Forest--Northeast
 Washington Vision 2020:
 
  Forest Vegetation Established           770         585         609         880         480           3,324
   (acres).........................
  Forest Vegetation Improved            4,944         481       1,741       4,423       3,218          14,807
   (acres).........................
  Green tons of biomass made           51,763      37,275      46,407      27,504      23,529         186,479
   available for bioenergy (green
   tons)...........................
  Hazardous Fuels Treatments            9,389       1,107       2,151       1,064       1,933          15,644
   Outside the Wildland Urban
   Interface (acres)...............
  Hazardous Fuels Treatments within    12,240       6,797      15,085       5,683       7,639          47,444
   the Wildland Urban Interface
   (acres).........................
  Invasive Plant and Noxious Weed       2,093       1,995       2,281       2,011       2,246          10,626
   Treatments (acres)..............
  Roads decommissioned (miles).....         1           6           3           0           0              11
  Stream Habitat Restored or               15          25          27          17          34             118
   Enhanced (miles)................
  Terrestrial Habitat Restored or       9,654       6,788       6,606      39,568      13,990          76,606
   Enhanced (acres)................
  Timber Volume Sold (mmbf) \1\....        48          41          37          47          48             221
 
Deschutes National Forest--
 Deschutes Collaborative Forest
 Project:
 
  Forest Vegetation Established         5,992       6,212       4,824       3,306       5,595          25,928
   (acres).........................
  Forest Vegetation Improved           34,033      17,324      10,200       6,320       7,352          75,229
   (acres).........................
  Green tons of biomass made           79,055      74,130      71,286      57,050      36,878         318,399
   available for bioenergy (green
   tons)...........................
  Hazardous Fuels Treatments           57,479      17,611      17,701      16,451      23,587         132,829
   Outside the Wildland Urban
   Interface (acres)...............
  Hazardous Fuels Treatments within    32,927      28,166      32,808      23,368      22,869         140,138
   the Wildland Urban Interface
   (acres).........................
  Invasive Plant and Noxious Weed       5,417       3,793       6,095       6,329       6,833          28,466
   Treatments (acres)..............
  Roads decommissioned (miles).....         7           1          40           0           0              48
  Stream Habitat Restored or                5          21          18          17          20              80
   Enhanced (miles)................
  Terrestrial Habitat Restored or       1,563      33,208      15,830      23,641      30,784         105,026
   Enhanced (acres)................
  Timber Volume Sold (mmbf) \1\....        54          52          61          61          57             283
 
Eldorado and Stanislaus National
 Forests--Amador Calaveras
 Cornerstone:
 
  Forest Vegetation Established           380         330         471         199         196           1,576
   (acres).........................
  Forest Vegetation Improved            7,377       6,244       5,318       1,645       2,493          23,077
   (acres).........................
  Green tons of biomass made           84,027      90,252      71,239      22,094      44,018         311,630
   available for bioenergy (green
   tons)...........................
  Hazardous Fuels Treatments           11,385      11,078      13,287       9,144       9,059          53,953
   Outside the Wildland Urban
   Interface (acres)...............
  Hazardous Fuels Treatments within     8,989       6,832       2,640       3,444       5,019          26,924
   the Wildland Urban Interface
   (acres).........................
  Invasive Plant and Noxious Weed         752         757         816         725         914           3,964
   Treatments (acres)..............
  Roads decommissioned (miles).....         1           0           1           0           0    ...............
  Stream Habitat Restored or               23          17          36          39          38             154
   Enhanced (miles)................
  Terrestrial Habitat Restored or       2,344      25,476      21,960      11,422      14,071          75,272
   Enhanced (acres)................
  Timber Volume Sold (mmbf) \1\....        52          42          58          33          96             281
 
Flathead, Helena, and Lolo National
 Forests--Southwest Crown of the
 Continent:
 
  Forest Vegetation Established        14,689      18,852      16,947       7,034       9,428          66,950
   (acres).........................
  Forest Vegetation Improved            5,334       2,673       1,297       3,482       2,344          15,130
   (acres).........................
  Green tons of biomass made          127,024     115,768     100,166      87,458     115,952         546,368
   available for bioenergy (green
   tons)...........................
  Hazardous Fuels Treatments           13,347      15,252       8,761      18,668       7,461          63,488
   Outside the Wildland Urban
   Interface (acres)...............
  Hazardous Fuels Treatments within    15,447      14,195       9,463       8,026      16,445          63,576
   the Wildland Urban Interface
   (acres).........................
  Invasive Plant and Noxious Weed      13,770      16,505      10,188      11,877       9,868          62,209
   Treatments (acres)..............
  Roads decommissioned (miles).....        84          45          63           0           0             192
  Stream Habitat Restored or               91          47          82          52         111             384
   Enhanced (miles)................
  Terrestrial Habitat Restored or      16,504      36,678      57,563      47,529      89,467         247,740
   Enhanced (acres)................
  Timber Volume Sold (mmbf) \1\....        77          63          43          25          71             278
 
Fremont-Winema National Forest--
 Lakeview Stewardship:
 
  Forest Vegetation Established           947       1,238       1,536       1,511       6,233          11,465
   (acres).........................
  Forest Vegetation Improved           18,966       7,785      18,850      10,083      23,743          79,428
   (acres).........................
  Green tons of biomass made          119,078      62,829      45,046      51,636      35,806         314,394
   available for bioenergy (green
   tons)...........................
  Hazardous Fuels Treatments           43,398      22,700      49,415      17,674      37,709         170,897
   Outside the Wildland Urban
   Interface (acres)...............
  Hazardous Fuels Treatments within     8,409       6,535      10,890      34,007      21,977          81,818
   the Wildland Urban Interface
   (acres).........................
  Invasive Plant and Noxious Weed       2,697       1,792       2,555       2,247       2,759          12,051
   Treatments (acres)..............
  Roads decommissioned (miles).....         0           0           0           0           0               0
  Stream Habitat Restored or              152          88         144          21          28             434
   Enhanced (miles)................
  Terrestrial Habitat Restored or      14,499      21,017      32,969      30,877      32,687         132,048
   Enhanced (acres)................
  Timber Volume Sold (mmbf) \1\....        58          42          68          36          60             264
 
Grand Mesa-Uncompahgre-Gunnison
 National Forest--Uncompahgre
 Plateau:
 
  Forest Vegetation Established           707         669       2,500         355       1,873           6,104
   (acres).........................
  Forest Vegetation Improved              316       2,270       1,733         215         789           5,324
   (acres).........................
  Green tons of biomass made           18,070      18,342      16,887      17,389      15,868          86,556
   available for bioenergy (green
   tons)...........................
  Hazardous Fuels Treatments            1,877       6,184       2,870       3,839       6,287          21,057
   Outside the Wildland Urban
   Interface (acres)...............
  Hazardous Fuels Treatments within     2,013       4,444       1,397       1,707         532          10,093
   the Wildland Urban Interface
   (acres).........................
  Invasive Plant and Noxious Weed       5,225       6,686       1,759       1,304       2,249          17,223
   Treatments (acres)..............
  Roads decommissioned (miles).....        30         149         156           0           0             335
  Stream Habitat Restored or                9          35          25          28          27             124
   Enhanced (miles)................
  Terrestrial Habitat Restored or       5,528      36,647      45,772      15,228      33,223         136,398
   Enhanced (acres)................
  Timber Volume Sold (mmbf) \1\....        10          13          25          23          30             101
 
Idaho Panhandle National Forests--
 Kootenai Valley Resource
 Initiative:
 
  Forest Vegetation Established           897       1,342       1,461       1,499       1,141           6,340
   (acres).........................
  Forest Vegetation Improved            9,846       4,848       3,566       3,300       4,327          25,887
   (acres).........................
  Green tons of biomass made           69,904      66,441      70,776      66,898      62,407         336,425
   available for bioenergy (green
   tons)...........................
  Hazardous Fuels Treatments            7,620       6,636       4,414       3,892       2,473          25,035
   Outside the Wildland Urban
   Interface (acres)...............
  Hazardous Fuels Treatments within     3,479       3,609       4,157       3,983       4,132          19,359
   the Wildland Urban Interface
   (acres).........................
  Invasive Plant and Noxious Weed       3,075       3,600       3,038       2,330       3,251          15,293
   Treatments (acres)..............
  Roads decommissioned (miles).....        26          14           9           0           0              49
  Stream Habitat Restored or               22          13          10           6          38              88
   Enhanced (miles)................
  Terrestrial Habitat Restored or      10,888      30,038      21,494       9,766      30,073         102,259
   Enhanced (acres)................
  Timber Volume Sold (mmbf) \1\....        33          24          45          40          44             186
 
Lassen National Forest--Burney Hat
 Creek Basins:
 
  Forest Vegetation Established         1,512         703       1,520       1,160         924           5,819
   (acres).........................
  Forest Vegetation Improved            8,961       7,424       8,341       4,439       5,002          34,167
   (acres).........................
  Green tons of biomass made          124,145     158,484     129,096      70,051      86,847         568,623
   available for bioenergy (green
   tons)...........................
  Hazardous Fuels Treatments           18,358      11,500      11,594       7,210       9,809          58,469
   Outside the Wildland Urban
   Interface (acres)...............
  Hazardous Fuels Treatments within     2,683       5,033       2,824       2,884       1,783          15,206
   the Wildland Urban Interface
   (acres).........................
  Invasive Plant and Noxious Weed         192         493          90          60          50             886
   Treatments (acres)..............
  Roads decommissioned (miles).....         7           9           1           0           0              17
  Stream Habitat Restored or               25          32          14           9          19              98
   Enhanced (miles)................
  Terrestrial Habitat Restored or      11,982       6,286       6,134       4,012       5,151          33,565
   Enhanced (acres)................
  Timber Volume Sold (mmbf) \1\....        34          56          40          54          31             215
 
Malheur National Forest--Southern
 Blues Restoration Coalition:
 
  Forest Vegetation Established         4,767       4,588       4,219       6,135       4,251          23,959
   (acres).........................
  Forest Vegetation Improved           15,097       3,977       4,979      13,628       7,416          45,097
   (acres).........................
  Green tons of biomass made           22,361      19,238      32,587      29,744      33,231         137,161
   available for bioenergy (green
   tons)...........................
  Hazardous Fuels Treatments           26,298       7,714      12,205      32,471      32,606         111,293
   Outside the Wildland Urban
   Interface (acres)...............
  Hazardous Fuels Treatments within    17,246      18,247      13,894      12,975       8,940          71,302
   the Wildland Urban Interface
   (acres).........................
  Invasive Plant and Noxious Weed         410         203          43         322         364           1,341
   Treatments (acres)..............
  Roads decommissioned (miles).....        29           3           0           0           0              32
  Stream Habitat Restored or               23          29          33          16          32             133
   Enhanced (miles)................
  Terrestrial Habitat Restored or      33,173      31,314      27,176      29,220      31,776         152,659
   Enhanced (acres)................
  Timber Volume Sold (mmbf) \1\....        39          29          34          55          70             227
 
Mark Twain National Forest--
 Missouri Pine Oak:
 
  Forest Vegetation Established         5,077       5,838       6,828       6,483       6,343          30,569
   (acres).........................
  Forest Vegetation Improved            3,635       4,004       8,773       2,361       6,963          25,736
   (acres).........................
  Green tons of biomass made           27,345      22,541      16,592      12,844      39,276         118,597
   available for bioenergy (green
   tons)...........................
  Hazardous Fuels Treatments           52,680      35,661      26,643      26,731      31,675         173,391
   Outside the Wildland Urban
   Interface (acres)...............
  Hazardous Fuels Treatments within    13,631      10,272      32,534       7,848      37,920         102,205
   the Wildland Urban Interface
   (acres).........................
  Invasive Plant and Noxious Weed       4,936       3,930         871       2,104       2,399          14,241
   Treatments (acres)..............
  Roads decommissioned (miles).....        28           0          35           0           0              63
  Stream Habitat Restored or                1          24          85          28          74             211
   Enhanced (miles)................
  Terrestrial Habitat Restored or      29,307      70,912      68,468      52,826      64,810         286,322
   Enhanced (acres)................
  Timber Volume Sold (mmbf) \1\....        47          46          38          50          54             235
 
National Forests in Florida--
 Accelerating Longlead Pine:
 
  Forest Vegetation Established        10,465       4,016       5,044       5,305       3,404          28,234
   (acres).........................
  Forest Vegetation Improved            2,553       1,202       2,381       3,852       5,292          15,280
   (acres).........................
  Green tons of biomass made            1,577       2,213       1,203       1,323         956           7,271
   available for bioenergy (green
   tons)...........................
  Hazardous Fuels Treatments           75,960      77,558      58,206      46,620      49,010         307,354
   Outside the Wildland Urban
   Interface (acres)...............
  Hazardous Fuels Treatments within   171,762      82,542      70,996     126,105     151,932         603,337
   the Wildland Urban Interface
   (acres).........................
  Invasive Plant and Noxious Weed         341         394         496         504         427           2,162
   Treatments (acres)..............
  Roads decommissioned (miles).....        39          30          47           0           0             116
  Stream Habitat Restored or               33          27          33         860          56           1,009
   Enhanced (miles)................
  Terrestrial Habitat Restored or     142,274     172,003     302,847     218,666     181,883       1,017,673
   Enhanced (acres)................
  Timber Volume Sold (mmbf) \1\....        22          32          42          32          55             183
 
National Forests in Mississippi--
 Longleaf Pine Ecosystem
 Restoration and Hazardous Fuels
 Reduction:
 
  Forest Vegetation Established           977         819       1,445       2,120         954           6,315
   (acres).........................
  Forest Vegetation Improved            3,006       1,688       1,643       1,906         773           9,016
   (acres).........................
  Green tons of biomass made            7,824       1,162       4,002         773         481          14,242
   available for bioenergy (green
   tons)...........................
  Hazardous Fuels Treatments           22,451      16,330      15,307       4,045       4,277          62,410
   Outside the Wildland Urban
   Interface (acres)...............
  Hazardous Fuels Treatments within   222,365     108,544     158,739     193,547     198,300         881,495
   the Wildland Urban Interface
   (acres).........................
  Invasive Plant and Noxious Weed       3,536       3,804       2,710          32         495          10,576
   Treatments (acres)..............
  Roads decommissioned (miles).....       140          27         116           0           0             283
  Stream Habitat Restored or                6          40          40          52          38             176
   Enhanced (miles)................
  Terrestrial Habitat Restored or     187,446     132,324     191,577     324,785     241,605       1,077,737
   Enhanced (acres)................
  Timber Volume Sold (mmbf) \1\....        75          64          72          58          77             346
 
National Forests in North Carolina--
 Grandfather Restoration Project:
 
  Forest Vegetation Established           463      23,708       6,894       1,137         796          32,997
   (acres).........................
  Forest Vegetation Improved            3,496       3,632       5,193       4,011       3,897          20,228
   (acres).........................
  Green tons of biomass made            8,874       8,289       6,711       8,181       8,382          40,437
   available for bioenergy (green
   tons)...........................
  Hazardous Fuels Treatments           18,045      17,711       3,043       3,046       9,592          51,438
   Outside the Wildland Urban
   Interface (acres)...............
  Hazardous Fuels Treatments within    29,561      20,110      36,234      29,354      25,265         140,524
   the Wildland Urban Interface
   (acres).........................
  Invasive Plant and Noxious Weed         326         712       1,190       1,355         799           4,382
   Treatments (acres)..............
  Roads decommissioned (miles).....        16           1           2           0           0              19
  Stream Habitat Restored or               55          55          61          39          29             239
   Enhanced (miles)................
  Terrestrial Habitat Restored or       3,446      35,764      11,845       9,518      37,120          97,691
   Enhanced (acres)................
  Timber Volume Sold (mmbf) \1\....        17          27          22          16          18             100
 
Nez Perce National Forest--Selway-
 Middle Fork:
 
  Forest Vegetation Established         2,691       3,280       2,323       2,831       3,023          14,148
   (acres).........................
  Forest Vegetation Improved            1,263       1,088       1,129         879       2,769           7,128
   (acres).........................
  Green tons of biomass made           20,872      23,841      23,593      15,680      55,745         139,732
   available for bioenergy (green
   tons)...........................
  Hazardous Fuels Treatments            2,237      13,355      13,826      22,424      10,112          61,954
   Outside the Wildland Urban
   Interface (acres)...............
  Hazardous Fuels Treatments within     2,297       5,048       4,576         180       7,683          19,784
   the Wildland Urban Interface
   (acres).........................
  Invasive Plant and Noxious Weed       5,690       6,098       8,623       7,673       6,946          35,030
   Treatments (acres)..............
  Roads decommissioned (miles).....        79          35          44           0           0             159
  Stream Habitat Restored or               53          73          53          95          78             352
   Enhanced (miles)................
  Terrestrial Habitat Restored or       7,000      16,035      20,740      15,202      10,911          69,888
   Enhanced (acres)................
  Timber Volume Sold (mmbf) \1\....        15          16          18          12          56             117
 
Okanogan-Wenatchee National Forest--
 Tapash:
 
  Forest Vegetation Established         2,416       4,325       4,912       3,960       7,775          23,388
   (acres).........................
  Forest Vegetation Improved            5,709       3,750       3,657       4,004       2,630          19,750
   (acres).........................
  Green tons of biomass made           51,082      54,916      47,365      49,053      38,263         240,678
   available for bioenergy (green
   tons)...........................
  Hazardous Fuels Treatments            8,177       2,130       3,782       3,943       3,916          21,947
   Outside the Wildland Urban
   Interface (acres)...............
  Hazardous Fuels Treatments within    27,252      22,328      19,545      43,697      24,836         137,657
   the Wildland Urban Interface
   (acres).........................
  Invasive Plant and Noxious Weed      10,559      10,046       5,786       5,892       8,001          40,285
   Treatments (acres)..............
  Roads decommissioned (miles).....        11          20           4           0           0              35
  Stream Habitat Restored or                8           5         110          23          34             179
   Enhanced (miles)................
  Terrestrial Habitat Restored or      18,865      27,468      15,660       2,804      49,395         114,192
   Enhanced (acres)................
  Timber Volume Sold (mmbf) \1\....        56          53          42          34          37             221
 
Ouachita National Forest--Shortleaf
 Bluestem Community:
 
  Forest Vegetation Established        10,601       8,119       4,850       7,022       4,175          34,766
   (acres).........................
  Forest Vegetation Improved            9,332       7,216       7,673       5,449       9,267          38,937
   (acres).........................
  Green tons of biomass made            8,369      13,217      15,694      13,415      13,838          64,532
   available for bioenergy (green
   tons)...........................
  Hazardous Fuels Treatments           74,721      63,193      50,449      55,274      24,683         268,320
   Outside the Wildland Urban
   Interface (acres)...............
  Hazardous Fuels Treatments within    75,592      46,371      69,978      70,081      89,053         351,075
   the Wildland Urban Interface
   (acres).........................
  Invasive Plant and Noxious Weed         430         290         374         400         536           2,030
   Treatments (acres)..............
  Roads decommissioned (miles).....         0           0          56           0           0              56
  Stream Habitat Restored or               30         165          64          42          40             341
   Enhanced (miles)................
  Terrestrial Habitat Restored or     122,827     145,791     132,701     210,270     152,321         763,910
   Enhanced (acres)................
  Timber Volume Sold (mmbf) \1\....        95         100          89          77          85             446
 
Ozark St Francis National Forest--
 Ozark Highlands:
 
  Forest Vegetation Established         3,238       2,304       1,417       1,639       1,832          10,430
   (acres).........................
  Forest Vegetation Improved            4,481       5,936      11,460       5,599       5,440          32,916
   (acres).........................
  Green tons of biomass made            5,364       3,165       2,574       2,844       3,399          17,346
   available for bioenergy (green
   tons)...........................
  Hazardous Fuels Treatments           61,528      42,579      22,707      15,690      28,653         171,157
   Outside the Wildland Urban
   Interface (acres)...............
  Hazardous Fuels Treatments within    31,010      17,520      44,031      42,604      26,050         161,214
   the Wildland Urban Interface
   (acres).........................
  Invasive Plant and Noxious Weed       3,235       3,446       3,090       3,971       4,730          18,473
   Treatments (acres)..............
  Roads decommissioned (miles).....         1           2          52           0           0              55
  Stream Habitat Restored or               64          62          87          71          88             371
   Enhanced (miles)................
  Terrestrial Habitat Restored or      82,655      82,557     133,569     120,757     156,508         576,046
   Enhanced (acres)................
  Timber Volume Sold (mmbf) \1\....        58          58          58          53          66             294
 
Payette National Forest--Weiser-
 Little Salmon Headwaters:
 
  Forest Vegetation Established         1,174       1,652       1,841       1,232         737           6,636
   (acres).........................
  Forest Vegetation Improved            5,387       1,978       2,409         948       2,697          13,419
   (acres).........................
  Green tons of biomass made           46,608      33,338      29,033      24,127      49,572         182,677
   available for bioenergy (green
   tons)...........................
  Hazardous Fuels Treatments           12,441       1,585       6,935      28,988      16,042          65,991
   Outside the Wildland Urban
   Interface (acres)...............
  Hazardous Fuels Treatments within    14,495      13,365       8,449       3,711       4,227          44,245
   the Wildland Urban Interface
   (acres).........................
  Invasive Plant and Noxious Weed       3,157       2,798       2,714       2,709       3,410          14,788
   Treatments (acres)..............
  Roads decommissioned (miles).....        53          20          33           0           0             106
  Stream Habitat Restored or               38          14          48          49          39             189
   Enhanced (miles)................
  Terrestrial Habitat Restored or      10,713       5,582      24,116      28,279      16,996          85,686
   Enhanced (acres)................
  Timber Volume Sold (mmbf) \1\....        28          27          19          15          27             115
 
Santa Fe National Forest--Southwest
 Jemez Mountains:
 
  Forest Vegetation Established           109         552         157       2,359         795           3,972
   (acres).........................
  Forest Vegetation Improved            1,260       1,061       1,745       1,619       1,098           6,783
   (acres).........................
  Green tons of biomass made           64,765      59,548      55,496      54,161      50,040         284,010
   available for bioenergy (green
   tons)...........................
  Hazardous Fuels Treatments           22,723       3,469       1,761      16,279       3,175          47,407
   Outside the Wildland Urban
   Interface (acres)...............
  Hazardous Fuels Treatments within     8,540       7,760       4,379       6,777      10,166          37,622
   the Wildland Urban Interface
   (acres).........................
  Invasive Plant and Noxious Weed         436         298         306         171         337           1,548
   Treatments (acres)..............
  Roads decommissioned (miles).....         0          11           0           0           0              11
  Stream Habitat Restored or               20          19          18          12          19              87
   Enhanced (miles)................
  Terrestrial Habitat Restored or       7,869       6,355      11,431       6,090       7,290          39,035
   Enhanced (acres)................
  Timber Volume Sold (mmbf) \1\....        15          14          13          12          12              67
 
Sierra National Forest--Dinkey
 Project:
 
  Forest Vegetation Established           267         836         138         229         170           1,640
   (acres).........................
  Forest Vegetation Improved            2,583       3,075       2,093       2,789       1,478          12,018
   (acres).........................
  Green tons of biomass made           16,073      21,914      11,842      11,445       8,247          69,521
   available for bioenergy (green
   tons)...........................
  Hazardous Fuels Treatments            5,135       1,703       3,645       3,201       5,265          18,949
   Outside the Wildland Urban
   Interface (acres)...............
  Hazardous Fuels Treatments within     4,514       4,951       2,111       5,442       2,293          19,311
   the Wildland Urban Interface
   (acres).........................
  Invasive Plant and Noxious Weed         109          75          54          45          74             357
   Treatments (acres)..............
  Roads decommissioned (miles).....         0           1           0           0           0               1
  Stream Habitat Restored or                5          19          16          15          11              66
   Enhanced (miles)................
  Terrestrial Habitat Restored or       3,191      10,087       6,822       7,719       5,762          33,581
   Enhanced (acres)................
  Timber Volume Sold (mmbf) \1\....        15          22          23          20          25             106
----------------------------------------------------------------------------------------------------------------
\1\ Official Timber Volume Sold by National Forest comes from official PTSAR (Periodic Timber Sale Attainment
  Reports) which provides volume in both hundred cubic feet (ccf)--converted here to million board feet (mmbf).

    Question. How much in non-CFLR FS funds are used to meet matching 
requirements under CFLR? Please provide a breakdown by CFLR project.
    Answer. The table below provides a list of CFLRP expenditures used 
to meet the matching requirement under CFLRP projects.
          cflrp expenditures and forest service matching funds

             (Forest Service matching funds are italicized)

    The CFLR Fund (expenditures shown below) is to be used to pay up to 
50 percent of the cost of carrying out and monitoring ecological 
restoration treatments on National Forest System land. The remainder of 
project implementation and monitoring costs are provided by Forest 
Service and partner match funding. Forest Service matching funds listed 
below include appropriated, permanent, and trust funds, as well as 
restoration treatments funded through timber value within a stewardship 
contract. It also includes unobligated balances that may be available 
in a given year to support the Chief's priorities and Strategic Plan. 
Forest Service match includes investments that would go to these 
landscapes even without the CFLR program, to support these high 
priority restoration efforts. Initial investments supported the 
projects as partner match and revenue from woody byproducts increase 
over time with implementation.

----------------------------------------------------------------------------------------------------------------
                                                        Fiscal      Fiscal      Fiscal      Fiscal      Fiscal
                                                       Year 2010   Year 2011   Year 2012   Year 2013   Year 2014
                    Project Name                      CFLRP & FS  CFLRP & FS  CFLRP & FS  CFLRP & FS  CFLRP & FS
                                                         Match       Match       Match       Match       Match
----------------------------------------------------------------------------------------------------------------
Four Forest Restoration Initiative..................    $985,943  $1,377,483  $2,010,741  $3,890,185  $3,718,311
                                                      25,602,100   6,755,235  14,395,465  17,483,952  17,896,968
 
Accelerating Longleaf Pine..........................   1,000,313   1,164,031   1,408,354     979,898     984,542
                                                       1,579,787   1,464,896   1,599,014   1,687,376   2,491,322
 
Amador-Calaveras Cornerstone........................           0           0     658,373     620,770     930,857
                                                               0           0     716,275     618,295   5,982,159
 
Burney-Hat Creek Basins.............................           0           0     512,691     200,864     934,763
                                                               0           0           0     777,316     563,347
 
Colorado Front Range................................     930,458   3,578,889   2,945,211   2,494,072   1,937,324
                                                       1,100,763   1,436,804   1,968,824   2,902,453   4,412,522
 
Deschutes Collaborative Forest......................     498,402     660,492     621,311     443,468   1,100,337
                                                       2,506,679     627,886   1,251,485   1,297,611   1,863,306
 
Dinkey Landscape Restoration........................   1,107,000   1,170,965   1,408,791     900,819   1,095,987
                                                         305,919     688,878     820,427   1,631,206   1,566,590
 
Grandfather Restoration.............................           0           0     322,819     478,763     409,100
                                                               0           0     185,878   2,224,737     320,009
 
Kootenai Valley Resource Initiative.................           0           0     174,911     176,479     597,381
                                                               0           0     352,801     630,107   1,511,209
 
Lakeview Stewardship................................           0           0   2,088,646   2,037,204   2,707,036
                                                               0           0   3,347,513   5,321,117   4,075,996
 
Longleaf Pine \1\...................................  ..........  ..........  ..........   1,909,931   1,954,859
                                                               0           0   4,193,690   1,646,194   3,333,200
 
Missouri Pine-Oak Woodlands Restoration.............           0           0     534,966     531,335     786,272
                                                               0           0     295,308   1,434,590   1,066,617
 
Northeast Washington \1\ Forest Vision 2020.........           0           0           0   1,416,636   1,524,908
                                                               0           0   1,523,557   1,783,510   1,503,150
 
Ozark Highlands \1\ Ecosystem Restoration...........           0           0           0   1,371,740   1,349,323
                                                               0           0     425,389   1,822,965   2,384,261
 
Selway-Middle Fork..................................     998,125   3,030,467   2,755,991   2,305,822   2,270,924
                                                         352,145   1,595,149   1,579,612   2,708,049   2,653,263
 
Shortleaf-Bluestem..................................           0           0     316,319   1,739,957   1,382,163
                                                               0           0     642,974   2,795,554   2,718,882
 
Southern Blues Restoration Coalition................           0           0   1,935,470   1,762,834   1,865,750
                                                               0           0   1,595,247   4,205,990   3,069,395
 
Southwest Jemez Mountains...........................     341,414     976,477   1,256,857   1,997,544   1,948,378
                                                       1,143,000   1,417,600   2,551,544   2,576,738   2,643,191
 
Southwest Crown of the Continent....................   1,006,295   3,125,410   3,215,025   2,647,057   2,277,790
                                                       1,833,459   2,720,673   2,376,974   3,653,125   2,486,289
 
Tapash..............................................   1,346,196     803,182     881,714   1,454,042   1,710,488
                                                       1,264,305     324,716     860,034     204,258     865,364
 
Uncompahgre Plateau.................................     438,178     863,892     733,237     504,996     741,551
                                                         224,500   1,440,198     998,432   1,461,162   1,970,401
 
Weiser-Little Salmon Headwaters.....................           0           0   2,170,446   2,728,164   2,217,072
                                                               0           0   4,058,114   4,505,261  10,442,104
 
Zuni Mountain.......................................           0           0     329,311     559,502     358,020
                                                               0           0     402,113     770,191   8,665,053
                                                     -----------------------------------------------------------
      Total \1\.....................................   7,546,431  16,751,288  26,281,184  33,152,082  32,865,811
                                                     ===========================================================
      FS Total......................................  35,912,657  18,472,035  47,099,673  64,141,776  85,743,775
----------------------------------------------------------------------------------------------------------------
\1\ Note: 10 projects were added to the CFLRP program in fiscal year 2012 and three more were added in fiscal
  year 2013. CFLN totals include only expenditures; they do not capture prior year CFLN funds which remain
  available. CFLN funds provide up to 50 percent of the project funding, supplemented by the matching funds,
  over the 10-year project lifetimes.

    Question. In an answer to a question for the record from Energy and 
Natural Resources hearing in July of last year you stated that the 
Forest Service has identified approximately 11.3 million acres for 
highest priority treatment. You went on to say that these acres are at 
a high or very high risk and that treating these acres would greatly 
reduce the negative consequences of potential wildfires.
    Where are these acres located?
    Answer. The 11.3 million acres is an estimate based on a national 
scale analysis of fire potential that is regularly updated (annually or 
biennially) to incorporate landscape changes. These estimates reflect 
acres that are at high and very high risk of wildfire, are near human 
development or in high value municipal watersheds, not in wilderness or 
roadless areas, and in fire regime groups I, II, or III. The numbers 
are constantly changing, as wildfires, land management, and development 
occur. Due to this, the analysis only readily generates data at the 
Regional level.

------------------------------------------------------------------------
                                                               Priority
                   Forest Service Region                        Acres
------------------------------------------------------------------------
1 Northern Region..........................................    1,443,000
2 Rocky Mountain Region....................................      679,000
3 Southwestern Region......................................    1,704,000
4 Intermountain Region.....................................      764,000
5 Pacific Southwest Region.................................    3,698,000
6 Pacific Northwest Region.................................    1,884,000
8 Southern Region..........................................      999,000
9 Eastern Region...........................................      137,000
                                                            ------------
    Total Acres............................................   11,308,000
------------------------------------------------------------------------

    Question. How many of these acres do you plan to treat in fiscal 
year 2015, and how many for fiscal year 2016 under this proposed 
budget?
    Answer. The Forest Service expects to treat fuels on 2.145 million 
acres in 2015 and also in 2016. Much of this work will take place in 
the areas as identified above. Fuels work will also take place in areas 
that are high priority for integrated restoration objectives, or in 
areas where maintenance work is needed to protect previous landscape 
management investments (for example, maintenance burning in the 
Southeast). In addition, some areas require more than one treatment to 
effectively reduce risk or achieve restoration objectives.
    Question. How are you tracking the Forest Service's progress on 
treating these 11.3 million acres? Is there a performance measure in 
this budget proposal?
    Answer. Treated acres are tracked within an enterprise system, 
including their mapped locations. We are piloting a new performance 
measure for our draft Strategic Plan that better tracks risk reduced on 
National Forest System lands.
    Alaska doesn't compete well for hazardous fuels funds, but that 
doesn't mean our need isn't significant. I am particularly concerned 
about this in the wake of the Funny River Fire. As you know, roughly 
243 square miles burned in the fire, fueled largely by spruce bark 
beetle kills. We were fortunate that fuels breaks worked and helped 
keep the fire from being even more destructive. According to your 
statistics, Alaska received just $785,000 in fiscal year 2014 and is on 
track to receive about the same amount for fiscal year 2015.
    Question. Is this sufficient to meet the need in Alaska?
    Answer. Alaska received an additional $200,000 in fiscal year 2015 
for the Chugach National Forest's All Hands work. We recognize the 
importance and impact of the Fuels Program in Alaska. Due to 
constrained budgets, we must prioritize areas with more frequent fires 
and greater population densities.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
    Question. How important is the Disaster Cap Adjustment proposal to 
the administration's overall vision for reducing the threat of 
wildfires?
    Answer. The Disaster Cap Adjustment proposal is very important to 
the administration's proposal for a new wildfire funding mechanism. The 
proposal would allow us to continue to manage most wildland fires as we 
currently do, but would treat those fires that are most destructive and 
most costly outside of our discretionary budget. Approximately 1 
percent of fires result in about 30 percent of suppression costs, and 
this new wildfire funding mechanism would allow those fires to be 
considered natural disasters. The cost of fire management has grown 
from 13 percent of the agency's budget in the 1990s to over 50 percent 
in 2014. With constrained budgets, this has meant other programs have 
suffered diminished budgets.
    There is no set of solutions that will definitively result in 
decreasing wildfire management costs because of factors outside of our 
control, such as expansion of the wildland urban interface, and climate 
change. Taking these most expensive fires out of our constrained, 
discretionary budget by changing the mechanism to fund wildfire 
suppression will alleviate the need to continue cutting budgets to non-
fire programs and allow us to invest further in the restoration and 
active management programs that will improve the health and resilience 
of forests and grasslands, including making them more resistant to 
wildland fire.
    I cannot overstate how much the Disaster Cap Adjustment proposal 
for fire would alleviate the problems created by fire transfer. It 
would eliminate the need to transfer funds from hazardous fuels 
reduction efforts, and other important natural resource management 
programs to cover firefighting costs. When funding is transferred from 
other programs to support fire suppression operations, these programs 
are unable to accomplish priority work and achieve the overall mission 
of the agency. This priority work often was intended to mitigate 
wildland fire hazards in future years. The ability of programs to 
achieve established targets is impacted and projects are often put on 
hold or cancelled. Programs that help prevent damaging fires in the 
future, like Hazardous Fuels reduction, Integrated Resource 
Restoration, and the Collaborative Forest Landscape Restoration Program 
are critically important to maintain forest and rangeland health and 
reduce the threat of wildfires.
    Question. What are the management impacts that the Forest Service 
has experienced because of fire borrowing in previous years?
    Answer. In years when the base appropriation for suppression is 
insufficient to cover the cost of fighting wildland fire, the agency 
has the authority to transfer funds from non-fire activities to 
suppression. These non-fire activities are often those that improve the 
health and resilience of our forested landscapes and thus mitigate the 
potential for fire in future years. These fire transfers, while they 
are generally reimbursed in subsequent appropriations, are highly 
disruptive to agency operations and hinder the Forest Service's 
capacity to effectively maintain and restore the Nation's forests and 
grasslands. The agency work must come to a halt in order to transfer 
funds and, although we may be able to do the work the following year 
with the reimbursed funds, there are costs related to the delay, the 
window for conducting that work may pass and other projects may become 
a priority, and we fall further behind as we can never recapture the 
lost season of work.
    Question. Given that the Forest Service will always fight forest 
fires, what will happen to the rest of the Forest Service budget if 
Congress fails to approve the disaster cap and fails to end 
sequestration?
    Answer. The increasing cost of fighting wildland fire has a 
negative and lasting impact on the Forest Service's non-fire, mission-
critical activities. We anticipate that without the budget cap 
adjustment, and with continued sequestration, we could face 
significantly negative funding impacts to other Forest Service mission 
focus areas thereby reducing our ability to achieve programmatic 
objectives because of the need to transfer funds from hazardous fuels 
reduction and other important natural resource management programs to 
cover firefighting costs.
    Question. Are the Forest Service's attorneys working with the 
Valles Caldera Trust to ensure that long-term agreements and contracts 
are not jeopardized by the management transfer to the National Park 
Service?
    Answer. The Forest Service is working closely with the National 
Park Service and the Valles Caldera Trust to ensure that the transfer 
of long-term agreements and contracts are not jeopardized by the 
management transfer to the National Park Service.
    Question. How will the Forest Service continue to manage the 
Southwest Jemez Mountains Landscape Restoration Project, now that a 
portion of the original project area and scope are not National Forest 
System lands?
    Answer. In fiscal year 2015, the Forest Service is transferring 
funds to the National Park Service for restoration activities on the 
Valles Caldera National Preserve lands under the existing contract. The 
Santa Fe National Forest is committed to continuing to collaborate with 
the National Park Service to achieve the Southwest Jemez Mountains 
restoration goals.
    Question. The Forest Service has used the Southwest Ecological 
Restoration Institute (SWERI) to assist in collecting data, researching 
solutions to problems, consulting on and assessing planned decisions, 
and to disseminate their findings. Despite the benefits to the Forest 
Service, funding for the Institute has stagnated over the last few 
years at $1.5 million. Is this level of funding adequate for SWERI's 
work?
    Answer. The current funding amount is consistent with the levels 
set by Congress when the Southwest Forest Health and Wildfire 
Prevention Act (which authorized funding to these Institutes) was 
passed. The amounts provided to each Institute are meant to align with 
their capacity and focus areas. They are valuable partners and play a 
critical role in the transfer of current scientific information 
regarding management of fire-adapted ecosystems in the interior West. 
The Forest Service has also provided additional funding to the 
Institutes through other partnerships and competitive processes. The 
Forest Service meets regularly with representatives from each Institute 
to discuss funding, upcoming work plans, and outyear planning. Our 
Southwest Region develops annual work plans for each Institute in 
consultation with the Department of the Interior and State Foresters.
    Question. Within SWERI, both the New Mexico Forest and Watershed 
Restoration Institute and the Colorado program receive substantially 
less each year than Arizona, despite the fact that the three programs 
submit a shared list of projects to the Forest Service. It is my 
understanding that the institutes produce an annual work plan matching 
their $1.5 million authorization delivered to the Forest Service before 
their funding is allocated. Is the funding for the three individual 
institutes based on their annual submissions of projects, or is it just 
based on historic levels and an archaic formula?
    Answer. The fiscal year 2015 allocation was based on the 
distribution in the fiscal year 2008 Appropriations Bill, the last year 
in which allocations were specified by Congress: Northern Arizona 
University $1,200,000 (80 percent); Colorado State University $150,000 
(10 percent); and New Mexico Highlands University $150,000 (10 
percent).
    Question. What will the Forest Service do to provide additional 
financial resources for the New Mexico and Colorado programs that are a 
part of SWERI?
    Answer. Over the years, the Forest Service has provided additional 
funding to the Institutes through other partnerships and competitive 
processes. The Forest Service meets regularly with representatives from 
each Institute to discuss funding, upcoming work plans, and outyear 
planning. Our Southwest Region develops annual work plans for each 
Institute in consultation with the Department of the Interior and State 
Foresters. We will continue to meet and engage in discussions about 
funding levels appropriate for each Institute's outyear work plans.
    Question. The President's budget calls for an increase of $20 
million for the Collaborative Forest Landscape Restoration Program. 
What are the plans for the additional funding--will new projects be 
started, or is the increase to provide higher levels of funding to the 
existing projects?
    Answer. The fiscal year 2016 President's budget would permit the 
investment in up to 10 new CFLRP projects. New CFLRP projects would be 
submitted by Forest Service Regions and reviewed by an Advisory 
Committee. As specified in the law, the Advisory Committee will then 
submit recommendations for funding projects to the Secretary of 
Agriculture, who will make a final decision regarding project 
selection.
    Question. In fiscal year 2014, the Forest Service was provided with 
$2 million for a Restoration Partnerships program to improve relations 
with utilities and increase non-Federal funding for fuels treatments. 
Why did the Forest Service not request specific funding for this 
program in fiscal year 2015 or fiscal year 2016, and what is the Forest 
Service doing to continue this type of activity without specific 
funding?
    Answer. This budget item was not requested for fiscal year 2015 or 
fiscal year 2016 because similar activities will be carried out through 
partnerships under the proposed Integrated Resource Restoration budget 
line item.
    Question. How is the Forest Service working with utilities to 
ensure that fires like the 2011 Las Conchas Fire in New Mexico, started 
by a downed power line, will not happen again?
    Answer. Our Lands staff has been substantially engaged in this 
issue. We have worked closely with Edison Electric and our partner 
Federal land management agencies to draft revisions to a national MOU 
to facilitate cooperation and coordination with utilities regarding 
vegetation management on Federal lands, both inside and outside of 
their rights of ways. The parties have also engaged with the 
Association of Fish and Wildlife Agencies to understand how State 
entities can be more involved in vegetation management planning and 
control. We also meet regularly with utilities to identify any specific 
instances where they have been unable to complete required vegetation 
work, and send representatives to Western Governors Association and 
Western Utilities Group meetings ( scheduled for May 2015) to discuss 
any adjustments to regulations, policies, or practices that facilitate 
cooperation in maintaining rights of way.
    Question. In the case of the Las Conchas Fire, we have a situation 
where the Forest Service--an agency of the USDA--is suing a rural co-
op, which is supported by USDA loan authority, over the downed power 
line that reportedly led to the fire. What is the Forest Service doing 
to avoid these fire starts--and subsequent expensive litigation--in the 
future?
    Answer. We are developing a day-long workshop for agency leadership 
on energy development on National Forest System lands. This workshop 
will provide information on current and anticipated energy development 
project proposals and clarify the agency's role, responsibilities, and 
requirements to support energy demands in rural communities.
    Question. In response to the endangered species listing of the New 
Mexico Meadow Jumping Mouse in June 2014, the Forest Service has since 
fenced off riparian areas to protect the mouse. This has upset local 
ranchers who have grazed in some of these areas for generations. What 
is the Forest Service doing to ensure ranchers are informed and have 
reasonable access?
    Answer. The Forest Service is actively working with affected 
grazing permittees, the U.S. Fish and Wildlife Service, and other 
stakeholders on developing approaches to ensure the protection and 
recovery of the endangered New Mexico meadow jumping mouse while 
accommodating continued grazing. Affected permittees have been informed 
of the opportunity to participate in the consultation process with U.S. 
Fish and Wildlife Service through applicant status, as well as the 
opportunity to participate in any NEPA processes, and multiple 
opportunities for face-to-face discussions on these issues.
    In fiscal year 2014, the listing of the New Mexico meadow jumping 
mouse required the Forest Service to take immediate measures to protect 
occupied habitat which was not already within riparian enclosures. 
These enclosures allowed continued access to water for cattle and did 
not result in any reductions in permitted grazing numbers or change in 
permitted season of use. Of the 22 allotments with proposed critical 
habitat in New Mexico and Arizona, only two allotments required 
installation of temporary fencing, 13 already had permanent fencing in 
place, and the remaining allotments were either vacant, lacked occupied 
habitat, or were not scheduled for grazing after the listing. A 
relatively small percent of each allotment is within proposed critical 
habitat.
    The final determination of any further protective measures or 
change in grazing management will depend upon pending consultation, 
final designation of critical habitat, and any required NEPA analysis. 
Further details are available on the Southwestern Regions Web site at 
http://www.fs.usda.gov/detail/r3/home/?cid=stelprd3809040.
    Question. Water is a big concern for New Mexicans and for 
Westerners generally. The severe drought in the Southwest weighs 
heavily on the shoulders of land and water managers and users in the 
region. What role does the Land and Water Conservation Fund play in 
helping to protect watersheds throughout the National Forest System?
    Answer. The Land and Water Conservation Fund plays an important 
role in protecting intact, healthy watersheds, as well as lands in 
compromised watersheds that are good candidates for restoration to 
improve water quality and quantity. New Mexico has a great example--the 
Miranda Canyon acquisition recently completed on the Carson National 
Forest. Just over 5,000 acres of protected lands in the headwaters of 
the Rio Grande River as well as the entire Arroyo Miranda watershed 
were acquired, to protect watersheds throughout the National Forest 
System and to provide drinking water to local communities.
    Question. In fiscal year 2014, the Forest Service proposed an 
increase of $12 million for Research and Development, but in both the 
fiscal year 2015 budget and now the fiscal year 2016 budget, there is a 
$17 million reduction. What will be the impacts of this overall 
reduction--and why this abrupt switch from proposed increases to 
decreases?
    Answer. The fiscal year 2016 President's budget the Forest Service 
proposes $291,982,000 for Research and Development (R&D), with 
$83,000,000 for the Forest Inventory and Analysis (FIA) program and 
$208,510,000 for the other portions of R&D. This is an increase of 
$13,000,000 for FIA and a decrease of $17,000,000 for other R&D 
programs.

----------------------------------------------------------------------------------------------------------------
                                                                              Fiscal Year 2016
                                                            Fiscal Year 2015     President's         Change
                                                                 Enacted           Budget
----------------------------------------------------------------------------------------------------------------
Non-FIA programs..........................................      $226,000,000      $208,510,000      -$17,018,000
FIA programs..............................................        70,000,000        83,000,000       +13,000,000
R&D Total.................................................       296,000,000       291,982,000        -4,018,000
----------------------------------------------------------------------------------------------------------------

    As the Nation's ``Forest Census'', FIA provides information on 
forest health today and how forests are likely to appear 10 to 50 years 
from now. FIA is foundational to restoration efforts on National Forest 
System lands as well as private forestland. The additional $13,000,000 
will provide for the first time inclusion of interior Alaska to the FIA 
program and improved measurements and research capacity, including the 
improved estimation of forest carbon inventory, land cover and timber 
products output.
    The $17 million proposed decrease to the non-FIA research portfolio 
will result in a loss of capacity to the non-FIA research programs. 
These proposed changes reflect the difficult choices made to support 
the priority of forest restoration work while providing for growing 
fire suppression costs and meeting deficit reduction goals.
    Question. What will be the impacts of the proposed Research and 
Development budget cut on research into cost-effective biomass uses 
that could result in economic benefits, such as the nanotechnology work 
occurring at the Forest Products Laboratory?
    Answer. The fiscal year 2016 President's budget would fund 
continued research into cost-effective biomass uses; however, some 
research may need to be conducted at a slower pace.
    Question. How does the Forest Service intend to maintain a focus on 
market development for biomass with this proposed cut in Research and 
Development?
    Answer. Market expansion and development for high value, high 
volume biomass uses from low value wood would be funded by the Wildland 
Fire Management account. Specifically, hazardous fuels funds would be 
made available for market development through grants to States and 
funds for the Forest Products Marketing Unit (FPMU) at the Forest 
Products Laboratory.
    Question. Recreation, Heritage and Wilderness is slated for a $2.3 
million increase in the fiscal year 2016 budget request. However, 
within the program, Recreation management is up $3.7 million, Special 
Use Authorization administration is up $2.3 million, and Wilderness/
Wild & Scenic River management is cut by $2.9 million. Why does 
Recreation need more vs. Wilderness in fiscal year 2016?
    Answer. In fiscal year 2016, we propose to strengthen and enhance 
the public's connection with the outdoors through privately provided 
services, expanding citizen stewardship through partners and volunteer 
opportunities, and enhancing the quality and delivery of information to 
the public.
    In fiscal year 2016, an increase in funds for Recreation Operations 
funds will support: (1) further engagement of youth, veterans, and 
underserved populations, via our partnerships through the 21st Century 
Conservation Service Corps (21CSC); and (2) delivery of accurate, real-
time data on recreation opportunities to enable more efficient, mobile 
and consistent data management for use by the public as well as 
vendors.
    The decrease in funding for Wilderness and Wild & Scenic Rivers 
program reflects both a reduction in funding associated with the 
completion of the 10-Year Wilderness Stewardship Challenge and our 
celebration of the 50th anniversary of the Wilderness Act. The budget 
proposes a shift in funds towards special use administration, 21CSC, 
and expanding our digital infrastructure by supporting a public-facing 
web portal for permit requests. These investments will support the more 
than 5,000 outfitters and guides whose livelihoods depend on our public 
lands and waters, including many that operate in and around Wilderness 
and Wild and Scenic Rivers.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
    Question. In 2004, the U.S. Forest Service (USFS) adopted the Land 
Between the Lakes (LBL) Land and Resource Management Plan or the ``Area 
Plan.'' This plan includes information pertaining to the land 
allocations (i.e. forest, open lands, recreation and environmental 
education), and strategies for supporting these designations, and other 
criteria to be used to maintain the Land Between the Lakes National 
Recreation Area. After 10 years executing the Area Plan, visitors, 
residents, and others have noticed a recent uptick in logging and 
burning by the USFS at LBL, meanwhile other needed infrastructure and 
maintenance projects continue to go unaddressed by the USFS. These 
misplaced priorities have caused much concern among hunters, horsemen, 
hikers, residents, preservationists, and others that visit the park. It 
is my understanding that these constituents, as well as locally elected 
officials, have called on your agency to provide all management plans 
and financial documents relating to the Area Plan, and for the USFS to 
halt any logging and burning until this information is received and 
reviewed by the community, so that they may engage in a transparent and 
public dialogue with your agency.
    Has your agency provided this information to the community to date 
and, if not, when does it intend to do so?
    Answer. The Land Between the Lakes National Recreation Area (LBL) 
is engaging the public in conversations to address these concerns. The 
first public meeting was held on April 28, 2015. Lyon County Judge-
Executive Wade White requested and was sent information regarding 
public engagement in the development of the LBL Area Plan. The unit has 
also shared information on budget allocations for fiscal years 2013 
through 2015.
    Question. Do you intend to suspend logging and burning at LBL until 
you address the community's concerns regarding this matter?
    Answer. The Land Between the Lakes National Recreation Area 
Supervisor has committed to:

  --delaying offering additional timber sales until the public could be 
        engaged in a conversation about land management;
  --addressing visual concerns on existing timber sales brought up by 
        the public from the Trace Scenic Highway (existing timber sales 
        will continue to operate per contract obligations), and
  --starting a conversation with the public about land management.

                          SUBCOMMITTEE RECESS

    With that, we stand adjourned.
    [Whereupon, at 11:45 a.m., Wednesday, March 18, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
